<html>
<title> - THE NORTH IRELAND PEACE PROCESS TODAY: ATTEMPTING TO DEAL WITH THE PAST</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



THE NORTH IRELAND PEACE PROCESS TODAY: ATTEMPTING TO DEAL WITH THE PAST

=======================================================================

                       JOINT MEETING AND HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2014

                               __________

                           Serial No. 113-179

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-142PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
LUKE MESSER, Indiana                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                BRIEFER

The Baroness Nuala O'Loan (former Police Ombudsman for Northern 
  Ireland) (appearing via videoconference).......................     6

                               WITNESSES

The Honorable Richard N. Haass, chair, Panel of Parties in the 
  Northern Ireland Executive.....................................    25
Ms. Geraldine Finucane, wife of slain human rights attorney 
  Patrick Finucane...............................................    47
Mr. Eugene Devlin, victim of the Military Reaction Force.........    49
Ms. Julia Hall, expert on criminal justice and counter-terrorism 
  in Europe, Amnesty International...............................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Baroness Nuala O'Loan: Prepared statement....................    10
The Honorable Richard N. Haass: Prepared statement...............    29
Mr. Eugene Devlin: Prepared statement............................    51
Ms. Julia Hall: Prepared statement...............................    55

                                APPENDIX

Briefing and hearing notice......................................    70
Briefing and hearing minutes.....................................    71
The Honorable Richard N. Haass: Material submitted for the record    72
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement from the Pat Finucane Center.........................    76
  Statement from Ms. Patricia Lundy..............................    80
Ms. Julia Hall: Material submitted for the record................    85

 
                    THE NORTH IRELAND PEACE PROCESS
                     TODAY: ATTEMPTING TO DEAL WITH
                                THE PAST

                              ----------                              


                        TUESDAY, MARCH 11, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

        Global Human Rights, and International Organizations and

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 2:05 p.m. in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations) 
presiding.
    Mr. Smith. The hearing of the subcommittees will come to 
order.
    Good afternoon to everybody. I want to welcome everyone and 
thank them for joining us this afternoon, particularly to our 
many friends who are testifying today and to others whom I see 
throughout this room who have been dogged in their 
determination to bring peace and justice and reconciliation to 
Northern Ireland.
    Today we will inquire into the Northern Ireland peace 
process, particularly the aspect of it which is called 
``dealing with the past.'' Sadly, much of what we will hear 
about amounts to failures to deal with the past, as in the 
rejection of the recent proposal by Dr. Richard Haass. 
Hopefully, that will turn around, but it is at this point not 
agreed to.
    Dr. Haass serves as chair of the Panel of Parties in the 
Northern Ireland Executive; that is, he was asked to assist in 
brokering an agreement to move the peace process forward. In 
that capacity, Dr. Haass spent months consulting and 
formulating a proposal. In the end, the proposal was not 
accepted by all of the parties, though it clarified where 
progress can be made and where sticking points remain, and it 
is a blueprint for the future.
    One of the most important questions that Dr. Haass and the 
parties dealt with is what will be done with the Historical 
Inquiries Team and the Police Ombudsman of Northern Island, two 
key bodies established by the Good Friday Agreement to 
investigate unsolved murders.
    We will discuss Dr. Haass's proposal to replace the HET and 
the PONI with an Historical Investigations Unit and Baroness 
O'Loan's suggestion to replace them with a rather different 
investigative commission--it parallels, but there may be some 
differences--during this hearing.
    For now, I want to underline this: Both agree that the 
status quo of dealing with The Troubles and the crimes that 
were committed should be replaced. Likewise, the parties in the 
Northern Ireland Executive reportedly agreed with this aspect 
of Dr. Haass's proposal. So the agreement is broad on this 
point. It is time to move to a better system.
    As Dr. Haass's proposal states, ``The multiplicity of 
institutions and vehicles for justice and respect of conflict-
related incidents, however, creates confusion and places 
enormous burdens on the police.'' The facts alone tell the 
story of the more than 3,000 Troubles related deaths that 
occurred between 1968 and 1998. The HET has yet to review some 
600 cases involving 800 deaths.
    Dr. Haass's proposed Historical Investigations Unit has 
much to say for it by establishing a single unit with full 
investigative power to eliminate the overlaps, the 
contradictions, and waste of resources and the mandates of the 
two other entities.
    Likewise the suggestion of Baroness O'Loan, who served very 
successfully as police ombudsman from 2000 to 2007 and on 
several occasions actually came here and testified very 
bravely. While her idea for an investigative commission that 
will be ``totally independent investigative, fully empowered 
and fully resourced body . . . with a remit to examine any 
Troubles-related cases involving death up to 2006 . . .'' Lady 
O'Loan's proposal emphasizes the need for the unimpeachabality 
of independent agency in order to win the trust of both 
communities.
    In any case, Dr. Haass's proposal remains extremely 
important on all points. Those involved most closely in the 
peace process have expressed their confidence that it 
accurately reflects the current divisions and positions of the 
parties and will likely serve as an important basis for future 
discussions.
    I think that those who think everything is done and 
finished, you can close the page on Northern Ireland, really 
don't know the situation on the ground. That is why we are 
having this hearing today, and that is why I think these 
important recommendations need to be taken very seriously all 
over the world, including in the United States.
    We will also hear today about the Finucane case and the 
British Military Reaction Force. These aspects of dealing with 
the past were not covered by Dr. Haass's proposal to the 
Northern Ireland political parties because they deal with 
matters that are the responsibility of the British Government.
    First, the British Government's failure to conduct the 
promised inquiry into collusion in the 1989 murder of Patrick 
Finucane remains an open sore.
    The British Government has a solemn obligation to initiate 
a full, independent, public, judicial inquiry that was agreed 
to as part of the overall peace settlement in Northern Ireland 
during the Weston Park negotiations.
    This obligation, which was undertaken by both governments 
as part of the Belfast Agreement, one of the outstanding 
diplomatic achievements of recent decades, was an extremely 
serious undertaking. In order for the peace process to move 
forward, the British Government must honor it.
    While Prime Minister Cameron has admitted to ``shocking'' 
levels of collusion between the state and loyalist 
paramilitaries in the murder of Patrick Finucane and apologized 
to the Finucane family for it, this does not substitute for a 
full exposition of the facts behind the British State's 
involvement in the murder. Rather, the steady increase in the 
amount of evidence being revealed publicly that the British 
State colluded with the killers has made honoring that 
commitment more important than ever.
    The British Government committed to implement the 
recommendation of a judge of international standing on six 
inquiry cases in 2004. Judge Peter Cory, who we have had at two 
of my hearings in the past, a very eminent former justice of 
the Supreme Court in Canada, recommended a public inquiry into 
the case of Patrick Finucane.
    Today, it remains the only case investigated where the 
recommendation has not been honored, a situation that is deeply 
unsatisfactory for many reasons, not the least of which it is 
evidently the one that the British Government is most culpable.
    Conversely, it is also the case in which, until the Prime 
Minister's announcement in December 2012, there has been the 
greatest level of sustained official denial by various state 
agencies.
    The many previous denials and time that has passed has 
drained public confidence in parts of the peace process and 
diminished respect for the rule of law in Northern Ireland.
    It must be said that there are those who oppose the peace 
process and their opposition is dangerous. The failure to 
address the case of Finucane in the manner proposed by the 
British Government provides a readily available propaganda tool 
for those to further their own ends.
    Secondly, there is the matter of killings committed by the 
British Army's Military Reaction Force. From approximately 1971 
to 1973, the British Army ran an undercover unit of 
approximately 40 soldiers who operated out of uniform and in 
unmarked cars mostly around Belfast.
    On November 21, 2013, the BBC program Panorama aired a 
documentary in which former members of the MRF broke silence on 
aspects of the unit's operations, confirming what many had 
suspected for a long time.
    The BBC reported that, ``We have investigated the unit and 
discovered evidence that this branch of the British State 
sometimes . . . shot unarmed civilians.''
    The BBC spoke to seven former members of the MRF and, 
though the men were careful not to incriminate themselves or 
each other in specific killings, they made plain that, as the 
Independent fairly characterized the report--and I quote--``The 
unit . . . would carry out drive-by shootings against unarmed 
people on the street without any independent evidence that they 
were part of the IRA.'' As one of the former members admitted 
to the BBC, ``We were not there to act like an Army unit--we 
were there to act like a terror group.''
    Now the onus is on the British Government to investigate 
and punish these crimes. The British Ministry of Defense has 
said that it has referred the matter to the police for 
investigation. Unfortunately, the BBC reported that, ``these 
soldiers were undercover, and what they did has been airbrushed 
from the official record.''
    I would like to now turn to my friend and colleague, Mr. 
Keating, for any opening comment he might have.
    Mr. Keating. Thank you, Mr. Chairman, for holding this 
hearing.
    It is an honor to welcome Dr. Haass today.
    It has been more than 15 years since the Good Friday 
Agreement. In that time, courage, conviction, and hard work 
have led to a more peaceful and more prosperous Northern 
Ireland.
    Of course, there is still much work to do. There is still 
too much tension and mistrust between Catholic and Protestant 
communities.
    No one can dispute the importance of justice for victims of 
repression and their loved ones, nor can we discount the role 
that tradition plays in shaping one's identity.
    As a former prosecutor, I understand the importance of 
truth and justice in any criminal investigation, especially one 
involving allegations of collusion.
    Bringing the facts of a case to light and holding 
perpetrators accountable is an essential part of closure and 
can pave the way for reconciliation. It is also essential that 
investigations be independent and free of political influence.
    I look forward to hearing from Dr. Haass about his proposal 
to establish a Historical Investigations Unit. I look forward 
to hearing from our witnesses on the second panel about their 
personal experiences.
    Despite tremendous personal risk, they have courageously 
thought to bring to light the facts surrounding political 
violence in Northern Ireland, violence which impacted each of 
them profoundly and tragically.
    As we examine the importance of dealing with the past, I 
hope we will also discuss the importance of looking to the 
future.
    In doing so, we should look for the example of those who 
set aside division and discord in favor of cooperation and 
compromise. What these men and women have in common is their 
commitment to building a brighter future as well as their faith 
in the rule of law and in equality of opportunity.
    In that same spirit, I believe one area in particular 
merits very close scrutiny. Addressing the issue of segregation 
in both schools and housing is essential to future progress.
    Like the champions of segregation in America's not-so-
distant past, many in Northern Ireland today argue that 
segregation is essential to maintaining peace and order. 
However, our own history shows that segregation only serves to 
feed fear and resentment. It reinforces stereotypes and it 
perpetuates inequality.
    The United States played a key role in brokering the Good 
Friday Agreement. We have a responsibility to continue to help 
the process move forward.
    I am concerned that, in the rush to balance the budget, 
some Members of Congress have acted too hastily in pressing the 
administration to cut funding for the International Fund for 
Ireland and the Mitchell Scholarship funding as well.
    These programs have been at the forefront of efforts to 
confront segregation and to promote reconciliation in Northern 
Ireland. Zeroing out U.S. funding sends exactly the wrong 
message at a pivotal moment in the Northern Ireland peace 
process.
    With that, I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Keating.
    Like to yield to my good friend and colleague, the chairman 
of Europe, Eurasia, and Emerging Threats Subcommittee, Dana 
Rohrabacher.
    Mr. Rohrabacher. Well, after hearing the opening statements 
from my colleagues, it is clear that they know much more about 
this than I do. And so I will be listening intently and 
expanding my level of understanding of the facts of what has 
been going on.
    I do know American history, however, and I do know that the 
bloodiest war that we ever had was with each other. And I don't 
think we should ever forget that.
    And, in fact, at the end of that war, we had President 
Lincoln, who was inaugurated here at the Capitol for his second 
inauguration, and he used the famous phrase, ``With malice 
toward none, with charity for all.''
    Unfortunately, one of those attending his second inaugural 
was John Wilkes Booth. There is a picture of him watching 
Lincoln being sworn in.
    My reading of American history is that it was our 
insistence of justice being done that created about 100 years 
of animosity between the North and the South. Had both of our 
sides decided that they would join each other in remorse over 
such a slaughter of innocent lives and of fellow Americans, 
perhaps that would have been different.
    And so, as we listen to what is going on in Ireland today, 
I am hoping that we hear ``With malice toward none and charity 
for all'' rather than ``Let's find out who did what to whom and 
punish them now for what they did 10 or 20 years ago, and we 
are not going to make peace until that happens.'' I hope that 
is not what I am going to hear.
    But I am very interested because I realize that all of our 
hopes are that the people of Ireland, both North and South, 
would find some accord by now and that the fact that the talks 
have broken down--and, again, I am not an expert on this like 
my colleagues, and I am certainly not an expert on prosecutions 
as my friend from Massachusetts is and whether or not that is 
the best road to go to find peace. But it does seem to me if 
the issue of a flag is significant here or not. And is this the 
reason that we have this breakdown?
    Also, I remember--I worked for the greatest Irish-American 
President, as you know, and I know there are some Democrats who 
might disagree with that. But having worked for Ronald Reagan, 
I actually went to Ireland and advanced his trip to Ireland, 
and it was one of the great occasions of my life.
    I spent a couple weeks there visiting Ballyporeen and all 
these places where the old Reagans used to go. And I will have 
to tell you that one of the things that I learned, there were a 
lot of Protestants there that I met and not one Protestant 
during that time complained to me that he was being 
discriminated against in the regular part of Ireland.
    So I don't fully understand the psychology of fear that 
does grip some of the Protestants in Northern Ireland about, 
perhaps, that there might be some type of persecution going on 
if there was some sort of unification.
    But we cannot just--I don't believe--and I am waiting for 
the testimony--I don't think that we can move forward with the 
idea that we are going to right all the wrongs of the past 
before we reach an agreement for the future, because that just 
isn't going to happen.
    Let's do our best. And I am really interested in seeing if 
we are doing our best and what suggestions we can have to 
actually move things along.
    Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you, Mr Chairman.
    Chair recognizes the gentleman from Texas, Randy Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    I am glad to hear that our colleagues are experts. I am 
looking forward to hearing them and the witnesses. Let's go.
    Mr. Smith. Thank you.
    The subcommittees will stand in temporary recess. This is 
now a briefing portion, pursuant to House rules--it is almost a 
distinction without a difference--but in order to hear the 
testimony and the briefing by Baroness Nuala O'Loan.
    In 1999, Baroness O'Loan became the first police ombudsman 
in Northern Ireland and continued in that post until 2007. In 
that capacity, she was responsible for the investigation of all 
complaints of criminal behavior and misconduct by police 
officers and other matters involving possible police 
wrongdoing, not the subject matter of complaint.
    In the course of her work, she has spoken widely at 
conferences and acted in an advisory capacity to government 
agencies responsible for policing and police accountability in 
many countries. In July 2009, she was appointed to the House of 
Lords and, consequently, to the Peerage in September 2009 as 
Baroness O'Loan.
    Baroness O'Loan has also provided this subcommittee a 
tremendous amount of input and counsel and wisdom as to what 
was really happening within the police, all part of her 
efforts.
    She never revealed anything that was not divulgable, but 
gave us a great sense as to what really was going on behind 
closed doors and did it as great risk to herself. She had been 
frequently threatened. She ignored those threats and went on 
and did an exemplary job as the ombudsman.
    So I would like to now welcome, on behalf of the 
subcommittees, Baroness O'Loan.

STATEMENT OF THE BARONESS NUALA O'LOAN (FORMER POLICE OMBUDSMAN 
                     FOR NORTHERN IRELAND)

    [The following testimony was delivered via teleconference.]
    Baroness O'Loan. Well, thank you. I am honored to be 
invited to give testimony here today.
    And I would very much like to thank you and to express my 
gratitude to the people of the United States and to your 
government for the contribution that you have made over the 
decades to the peace process, but also to people like me who 
work at the coalface.
    I want to put what we are going to talk about into a little 
context, if I may. During The Troubles, over 3,600 people died 
and over 50,000 were injured. Had that happened in the United 
States, you would have had over \1/2\ million people dead and 
you would have had over 8 million people injured, and I ask you 
to consider what the impact of that might have been on your 
country.
    We still have the families of those who died who want to 
know what happened. We have those seeking justice, and we have 
those, like the Finucane family, seeking to establish the 
extent of government responsibility for what happened. Those 
families come from right across our community.
    We have victims of bombings and shootings whose lives have 
been effectively disabled or limited by their experience, and 
we have individual investigations of individual bombings or 
shootings.
    But we also have cases like the Omagh bombing or the 
Ballymurphy killings in 1971, when 11 people were killed over a 
period of a couple of days by the Parachute Regiment. They 
included a Catholic priest and a young mother who went to the 
aid of a young man who had been shot.
    We have got Enniskillen; Loughinisland; McGurk's Bar. We 
have a litany of atrocities. And we still have the families of 
the people who are seeking the recovery of their loved ones 
disappeared by the IRA. And we have the highest levels of 
suicide, mental health problems, and trauma in Europe.
    And we only have a piecemeal process, which I think Mr. 
Haass described well for dealing with the past. So we need a 
coherent and effective strategy.
    If I can just explain what happens at the moment. Four 
organizations investigate the past. Coroners ask when, where, 
and how did someone die.
    And then the Historic Inquiries Team is part of the police. 
It is a unit. It doesn't investigate. It just reviews cases. It 
has no police powers at all. And we know there are difficulties 
about the way in which it is operated because it had one set of 
procedures for non-State actors and another set for State 
actors.
    And then we have the PSNI crime investigation department, 
which carries out the investigations in circumstances in which 
HET identify investigative opportunities. They investigate 
anybody who is not a police officer.
    And then we have the police ombudsman, who investigates 
anybody who is a police officer. But, unfortunately, police 
officers who have been engaged in such crime very often are 
engaged with others who are not police officers so that we, for 
example, in an investigation I reported on in 2007, identified 
collusion between loyalist paramilitaries and the police over a 
long period from 1991.
    So I want to tell you what the defects are in the current 
system, why it is not working. The first thing is that cases 
move about between the various organizations and, when they 
move about, each organization has to start investigating all 
over again, and that is very costly and very time-consuming.
    And then there are strict rules about protecting people so 
that, as police ombudsman, the people I was investigating would 
be the police officers. And they would be my suspects and then 
anybody else would be my witness, be they a soldier, a loyalist 
paramilitary, a Republican paramilitary, or anybody else, they 
would be my witness.
    For the police, the soldier, the Republican paramilitary, 
the loyalist paramilitary might well be their suspects, but the 
police officer couldn't be their suspect. So it is a very 
complex legal situation.
    There are significant problems, as I have said, with the 
structure and working practices of HET. There is a problem 
still around access to Special Branch intelligence, and that is 
critical to investigation.
    And is the Legacy Unit, which deals with this, in fact--
there are a number of former Special Branch offices there, and 
I don't think that is calculated to secure trust.
    The current arrangements, then, create significant 
difficulties if you are trying to move toward a prosecution. 
And I heard Mr. Rohrabacher say that, you know, he didn't want 
to hear about prosecutions, but the reality is that those who 
have suffered have the right, in international law, to a proper 
investigation of their cases.
    The Attorney General suggested that Northern Island should 
simply cease all inquiries, investigations, and inquests into 
deaths in the past. I think that is superficially attractive 
because it would allow us to move on, but I don't think you can 
have a system in which we are prosecuting young men for public 
order offenses and, if we convict them, then they are 
criminalized, and, yet, we do not even try to prosecute those 
who are suspected of murders and bombing and very serious 
offenses.
    It has all recently been complicated by the revelations of 
what we call the Downey letters, the letters through which some 
200 people received letters--letters which--in, certainly, Mr. 
Downey's case, gave him a situation in which his prosecution 
was discontinued for the Hyde Park bombing, the deaths of four 
soldiers and, indeed, of seven horses.
    So I think there is a need to build our future on the rule 
of law. Your poet, Maya Angelou, said that ``History with all 
its wrenching pain cannot be unlived. If faced with courage, it 
need not be lived again.'' And I think that is where we have to 
be.
    We all know that, even if we go through prosecution, there 
may not be--even if we go through investigation, there may not 
be many prosecutions, but there is a need for the State to act 
always in accordance with the rule of law.
    So I think we do need the kind of independent commission, 
which Congressman Smith described, to operate in accordance 
with all national and international standards of investigation.
    I think that we need to forthwith terminate the activities 
of the PSNI and of the police ombudsman in respect to historic 
deaths, create one single unit which would deal with them.
    It would require flexibility and imagination. It would have 
to be fully empowered in terms of its ability to arrest, 
search, seize, enter premises, secure scenes, et cetera, et 
cetera.
    Now, there is common purpose, I think, in that I think the 
people of Northern Ireland have come to the space where it is 
recognized that we need one unit. Eames-Bradley recommended 
what was called a Legacy Unit.
    That was attractive, but it had a 5-year time limit, which 
would never have worked. I mean, it took me on one occasion 9 
months to find a significant, but very important, witness. So 
you can't circumscribe it by time.
    I think the Haass proposals have moved us a long way. My 
criticisms of the Haass proposals, with great respect to Dr. 
Haass, are that, in the language of the Haass statements, it is 
not stated to be independent and it is not clear what it is a 
unit of. It is thought in some circles that it will be a unit 
of the PSNI, and that, I think, would not be independent in the 
eyes of the people.
    It is further suggested that it will report to the Northern 
Ireland Policing Board. But the problem with that is that the 
Northern Ireland Policing Board is responsible for the delivery 
of effective, efficient policing today and it has an interest 
in the issues which would be under investigation by the 
Historical Investigations Unit.
    There could very well be serving officers in the PSNI today 
who fall under investigation by the Historic Investigations 
Unit, and I would see a conflict arising there. And I'm not 
sure that it could secure the cross-community support.
    But I think, if we took the Haass proposal and, if you 
like, beefed it up to an independent commission, we would be 
able to bring in some international expertise.
    And we have seen a huge contribution by people like George 
Mitchell, which have really enabled change. So I think a 
commissioner from outside the UK would be very important.
    I have talked about the powers that this organization 
should have. In reality, everybody knows very few cases will go 
to prosecution. The decisions to prosecute will be made in the 
normal way according to the law.
    What is important is that ordinary people are able to find 
out what happened, that as much information as possible is 
given to them about the circumstances in which their loved one 
died or in which they themselves were attacked, that that 
information is provided to them in a respectful way, and that, 
at the end of the day, we allow--where we can, we set people 
free of the trauma which is currently limiting so much of our 
progress, and we allow our country to move on.
    So I think that is the essence, perhaps, Congressman Smith, 
of what I would want to say to you today.
    Mr. Smith. Baroness O'Loan, thank you very much for your 
very precise and compelling statement.
    [The prepared statement of Baroness O'Loan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Just very briefly, with regards to the idea of 
an independent commission, you mention in your written 
statement that the hope would be that they report to 
Parliament, as you put it, some of the reporting before 2006, I 
believe it is, would go to the Parliament and after which it 
would go to the Northern Ireland Assembly. I might have the 
date wrong. I am just looking for it.
    But to whom in Parliament would it go to? Would it be a 
special committee? Would it go to the Speaker? The First 
Minister? How do you see that playing out?
    Baroness O'Loan. Well, I think there are a number of 
options.
    I think it could--because the responsibility, if you like, 
is a Northern Ireland office responsibility for reserved 
matters and for the history of Northern Ireland, and that goes 
to the Home Office and, to some extent, Department of Justice.
    There are committees of the Houses of Parliament which are 
well placed to investigate. For example, I sit on the Joint 
Committee on Human Rights of the Parliament, which is a joint 
committee of the House of Commons and the House of Lords, or 
there is a Northern Ireland Affairs Committee.
    But I think reporting to Parliament would take out any 
suspicion that, you know, there could be cover-up or there 
could be a failure to be transparent. And that is why I think 
Parliamentary reporting is the way forward.
    Mr. Smith. You mention that there are conflicts of interest 
in terms of people who are investigated with the current system 
that would be eliminated or at least greatly mitigated by an 
independent commission.
    Could you elaborate for the committees those conflicts of 
interest.
    Baroness O'Loan. Well, as I see it, the Northern Ireland 
Policing Board, which is an independent organization comprising 
politicians and independent members, has a responsibility to 
secure the delivery of effective, efficient policing. It has no 
powers to conduct investigations or anything like that.
    And I think it is for that reason the police ombudsman has 
to be independent of the Policing Board in order to make 
independence a reality so that the Policing Board cannot in any 
way influence what the police ombudsman does.
    I think this Historic Investigations Unit or Historic 
Investigation Commission, whatever it is, has to be in a 
position in which there can be no suggestion that anybody has 
influenced in any way any of the decisions which are made 
within the unit, and I think you will only be able to do that 
if you take it away from those who have responsibility for 
policing.
    Mr. Smith. One of your major observations is that access to 
Special Branch intelligence is subject to gatekeeping by a 
Legacy Unit which employs former special branch officers. This 
is not calculated, you go on, to secure the trust of those 
affected by the arrangements.
    How problematic is that? Is that a huge problem?
    Baroness O'Loan. I think it is very problematic. I think it 
is a big problem.
    When I was investigating in the final stages both loyalist 
and Republican paramilitaries who were alleged to be in 
collusion with police officers, actually accessing the 
intelligence was profoundly difficult.
    I reported on that issue in my Ballast report, which you 
will find at the police ombudsman's Web site. And I reported in 
detail about the difficulties that we had with Special Branch 
in getting access to the information. You need to have direct 
access to be able to go in, to open up the computers, to look 
what is there, and to take it out.
    Now, I accept fully that there will have to be proper 
protection for that information. I accept fully that where 
agents of the State are involved, there is a need to be 
conscious of the need to protect their lives and the lives of 
anybody who maybe affected by their activities. But that 
doesn't mean it is impossible.
    I am very clear that, having done it myself, it can be done 
and that that access, that direct access to intelligence, 
should not be the subject of gatekeeping and it certainly 
shouldn't be the subject of gatekeeping by former Special 
Branch officers, who may be perfectly good, honest people, but 
who may be perceived to have, if you like, a motive not to be 
as honest and transparent as perhaps they would intend to be.
    Mr. Smith. And just two final points.
    And one of the main reasons for convening this hearing 
today is, I think, the mistaken view that somehow matters in 
Northern Ireland has moved on, that peace has broken out, 
reconciliation has broken out, but these long-simmering and 
festering injustices, with collusion being a part of it, remain 
unresolved.
    And I would hope the press and Members of Congress and 
members of parliaments everywhere would understand that there 
are festering sores. Justice delayed is justice denied. And in 
this case we are denying it. Things have not happened that were 
supposed to happen, one of which is the special public inquiry 
into Patrick Finucane's assassination.
    Geraldine Finucane is here and will be testifying, if you 
want to speak to that.
    But, also, this idea that Northern Ireland is off the radar 
screen for most people, it ought not to be. And, again, I think 
Ambassador Haass did a yeoman's work.
    And I would recommend--and he says it in his testimony--
everyone should read the proposed agreement, December 31st, 
2013, and it ought to become a subject of widespread, 
hopefully, discussion and action. But the page has not been 
turned. There are still unresolved problems that need to be 
fixed.
    Baroness O'Loan. I agree with you absolutely. I think that 
what the politicians and Dr. Haass achieved over that 6 months 
built very much upon the Eames-Bradley report.
    And I think there is a potential for a way of dealing with 
the past, subject to some of the criticisms I have made, and I 
think we have to find the courage to go on and to do it.
    I am not going to talk about Mrs. Finucane's case. I never 
investigated it. It was not one which came to me. I think she 
is the person best placed to articulate the difficulties and 
the trauma of what that family experienced. So I would simply 
pay tribute to her and leave it for her.
    Mr. Smith. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you very much for your statement. I just 
have one area I just wanted to get a handle on a little bit 
more.
    And what is the scope? What would be the scope of the 
independent commission in terms of your view and the number of 
cases that they would look at, the number of investigations?
    Because I think, when you get a better handle--at least, if 
I get a better handle on the scope, I might have a better view 
of some of the better ways to form that commission or have it 
conduct its work.
    Baroness O'Loan. I think it would have to be responsible 
for the investigation of all deaths resulting from The 
Troubles. And I think politicians will agree on the cutoff, 
whether it is 2006 or 2010, when justice was devolved. I don't 
know.
    But it should have the power and the ability to investigate 
actors of the State, such as agents of the State, soldiers, 
police officers, and ordinary, if you like, Republican and 
loyalist paramilitaries, anyone who was engaged in any way in 
any of the deaths which occurred during The Troubles.
    It should have full police powers. It should be as powerful 
as, for example, your FBI or our Metropolitan Police Service so 
there should be absolutely no question that it can do what it 
has to do.
    I think probably the most important thing is that it 
actually has the courage to exercise those powers because, you 
know, there can be a lot of pressure on people not to.
    Mr. Keating. I was just trying to contemplate if there was 
any kind of estimate on--maybe Dr. Haass might be helpful, 
too--on the number of cases.
    Because we have a seldom-used process in the U.S. of an 
inquest, where a judge would sit in a position and have all 
kinds of powers that you had mentioned and deal with an 
individual investigation itself and the judge--it wouldn't 
necessarily lead to a prosecution, but they could issue a 
report which then would take the next step toward potential 
legal action.
    So I was thinking, could this ever be done or would it be a 
secondary step to actually have an individual review of 
incidents themselves?
    Baroness O'Loan. We have had individual reviews, 
particularly the Cory reports, and Judge Cory did a number of 
the cases. We have 3,600 deaths, approximately, to answer your 
question about the specific numbers.
    Some of them have been very well investigated and, in 
respect to those, there will be no further need for 
investigation. And there is a significant number in respect to 
which considerable further investigation is required.
    I would see no benefit in appointing a judge to do it, 
although you could have a judicial figure heading your historic 
unit or your independent commission. The important thing is 
that whoever does it has the power to do it properly.
    And I think it does take a compilation of police powers, 
investigation powers, judicial powers, legal powers, et cetera, 
to do that effectively. So we have had judge-led inquiries, and 
that possibly is what Mrs. Finucane is seeking. But I don't see 
them as being the answer to everything.
    There are calls for what we call Hillsborough-type 
inquiries. I don't know if you are aware of that. But this was 
a situation in which a number of--well, I think 128 people died 
at a football match because of defective policing and an 
inquiry was led by a judge, but with academic researchers and 
police officers to investigate it, and produced a report which 
has now led to a police investigation. So we have a number of 
models which are available.
    My concern is that, if we could clarify to make it simple, 
if we could have one commission which could actually do 
everything and if we were prepared to put the money into 
enabling it to do it, then it could be a system in which people 
could have confidence and it could begin to draw the line under 
the past.
    Mr. Keating. Great.
    I think, given the number that you mentioned, a commission 
is better approach initially, because the numbers are much too 
high.
    But maybe, as a secondary approach, that is something that 
could be--for certain cases, could be developed, something that 
could be looked at.
    Thank you very much.
    I yield back.
    Mr. Smith. Thank you, Mr. Keating.
    Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    It just seems to me that what you are talking about--and I 
am sorry to--you know, just to be very frank, it sounds like 
you are dwelling so much on the violence of the past that you 
may not be able to lay the groundwork for a very pleasant 
future for children today.
    I will just have to say that--well, let me ask you how 
extensive you want this commission to delve into that and what 
kind of punishment you think should be dealt out to people who 
were engaged in what at that time was a chaotic situation in 
which people were losing their lives. There were explosions. 
There were police brutalities. You had an internal conflict, 
and some people make wrong decisions in situations like that.
    Do you believe that political leaders, people who were in 
elected office at that time, for example, who oversaw police 
policy--and we know that the police committed certain acts that 
are--that we now look back on that were not only not right, but 
were not legal--you would have those--what would you have those 
political leaders who turned their backs and just let this 
happen do?
    Are you saying that now we are going to contact people who 
are 80 and 90 years old and put them before a court and ship 
them off to prison and, thus, they can fully explain why they 
let these murderers go who beat some witness to death 30, 40 
years ago? What extent do you want--you want to take an 80-
year-old man or an 80-year-old woman who was a police 
commissioner, let's say--is it your idea that we need to take 
that person to justice, march them out, put them on trial, and 
put them in prison for what they did or what they didn't do?
    Baroness O'Loan. I think it is most unlikely--the scenario 
which you describe is most unlikely, in the first instance.
    What you need for a prosecution is an unbroken chain of 
evidence. And we do have law which says that anybody who is 
convicted of a Troubles related offense can only serve a 
maximum of 2 years. So that goes to your question about 
punishment. It is a maximum of 2 years.
    But the reality--if I may say, sir, the reality is that 
there are very likely to be very few of those situations.
    I have to say to you again, where--you know, in London, 
where I am at the moment--in London, for example, the 
Metropolitan Police are currently conducting an investigation--
another investigation into the murder of a young man called 
Stephen Lawrence who died nearly 30 years ago. We are also 
having a lot of child abuse investigations. I think you have 
those, too. Historic ones.
    I can't see the difference between--I can't see why a State 
would choose to investigate things like abuse of children, but 
choose not to investigate the much greater abuse of children 
which resulted from murdering their fathers and mothers.
    So I think that we have to stand back from the emotion, we 
have to accept that there will be very few cases. When people 
get to the age group that you are talking about, they very 
often can't remember, they may have difficulties such as forms 
of dementia and things like that. Nobody is going to seek to 
take those people before the court.
    But it is important that there be a process which is 
compliant with the law. And the law says that, if somebody has 
died, then the State has an obligation to investigate and to 
inform the families.
    Mr. Rohrabacher. You know, in my----
    Baroness O'Loan. Try to--if we try----
    Mr. Rohrabacher. In my area in Orange County, I am very 
much in favor of when the police get out of hand--and there 
have been several cases of that in the last couple years, where 
the police have murdered--for example, in Fullerton, 
California, where the police murdered some poor homeless guy 
who probably mouthed off to them. And there is no doubt that we 
need to bring people like that to justice.
    But to think about 20 or 30 years from now bringing the 
person who oversaw the police in city government who then 
perhaps let these guys go, if that is what happened, that we 
are going to bring justice to the case now, you will have--
you're talking about crimes that exist--that happened 30 years 
ago; are you not?
    Twenty, thirty years ago----
    Baroness O'Loan. But I have----
    Mr. Rohrabacher. And if they are 20, 30 years ago, the 
people who oversaw that are older people and may or may not 
have the ability to defend themselves against charges that 
somebody may--somebody may be holding grudges; somebody may 
not--it seems to me that what you are talking about is opening 
up a pandora's box that is a never-ending situation, at least 
for a century, while--you know, when Communism fell, they 
didn't take every local police chief who let their police do 
certain crimes against people and they didn't seek vengeance. 
And, thus, Communism was allowed to move on, and the people of 
Eastern Europe have moved on.
    It seems to me that what you are talking about is not 
moving on but, instead, dwelling on these things.
    Go right ahead and answer. I am sorry.
    Baroness O'Loan. What you have to understand is that it is 
not me that is saying this. It is the people who suffered at 
the hands of those who murdered their loved ones. And Mrs. 
Finucane will speak to you on this issue very clearly, I am 
quite sure.
    What I would want to say to you is that, again, we are not 
looking at overseers, for the most part. We are not looking at 
police commissioners.
    We are looking at the situation in which an individual 
death occurred, and for the most part, it will be 
paramilitaries who caused those deaths with no police 
involvement either. So we are looking at all the cases.
    It is a limited number, 3,600. In respect to a number of 
them, there have already been trials. There have already been 
prosecutions and convictions. So it is the outstanding numbers 
that we need to look at.
    And I think we need to have a process whereby people opt in 
if they want their case investigated, because there are some 
families who don't want any further investigation.
    The biggest thing the families want--and most families 
would say to me that they are not interested so much in 
prosecution. They want to know what happened, how it happened, 
and why it happened. And that, I think, is the basis upon which 
you build society.
    And I think I said when I presented to you that I do not 
believe that this would lead to many prosecutions. That has 
been my experience doing historic cases. But it is profoundly 
important that you tell people what happened.
    Mr. Rohrabacher. I think that you are well motivated. And, 
of course, who doesn't condemn the horrible crimes that you are 
talking about?
    There were some horrible crimes that were committed on both 
sides of this conflict, but the people who were in political 
power have certain more responsibility than do people who were 
not in power at the time.
    So let me just note that your motives are good, and I 
commend you for it. I don't believe what you are talking about 
will lead to a more peaceful situation in that part of the 
world, and I--but I know that you are talking about justice, 
which is something we should all be about.
    I will just end with this one thing. When I was a young 
person, one of the first lessons that I learned was that you 
have got to quit picking at the scab or your wound will never 
heal. That is the first thing I learned. I would hope that we 
are not just picking at scabs here. I hope we are looking to 
heal things.
    And I know that you are--you believe that, once all the 
facts get out, there is going to be a better chance at a 
national healing among the people of Ireland and Northern 
Ireland, and I understand that.
    And as I say, it is well motivated. I don't know if that is 
what will be the result, a healing, or just an opening up of a 
wound.
    Thank you very much.
    Baroness O'Loan. I can only speak from experience and tell 
you that, from the work which I did over the 7 years when I was 
police ombudsman, trust in the police was lower and the process 
through which people began to realize that the police were 
accountable for their actions led to enhanced confidence in 
policing. Everybody from the chief of police to political 
leaders acknowledged that fact.
    And I think, therefore, there is experience in Northern 
Ireland which suggests that, if we can find a way of dealing 
with the past--and I have to tell you, in so many cases, there 
is no unbroken chain of evidence, papers have been destroyed, 
they have been blown up, et cetera, et cetera. So we can--it 
will always be a limited process, in so many cases.
    But, as I said, I don't think we can have a legal system 
which criminalizes young people for marching down the street or 
protesting against those who marched down the street whilst it 
fails to deal with those who are suspected of more serious 
crime.
    Mr. Smith. Mr. Weber.
    Mr. Weber. I have no questions.
    Mr. Smith. Chair recognizes Mr. Holding, who I would note 
parenthetically is the former U.S. Attorney for the Eastern 
Northern Carolina district.
    Mr. Holding. Well, thank you, Mr. Chairman.
    I really don't have any questions at this time. But I 
appreciate the informative testimony and listening to the 
questions of my learned colleagues.
    Mr. Smith. Thank you very much.
    Baroness O'Loan, thank you so much for your statement. This 
is our 15th hearing that we have held on policing or injustices 
that--especially some of those that have been historical and 
have remained unresolved.
    We take the view on--at least I do--that there is no 
statute of limitations on murder. As a matter of fact, some of 
the most important prosecutions, even recently here in the 
United States, have focused on people who have been murdered 
during the civil rights movement or, even before the civil 
rights movement got off the ground here in the United States. I 
take the view that accountability is the ultimate confidence-
builder.
    And I take your point, as ombudsman, that there was a 
rising tide of confidence because of the work that was done, 
not as a reaction to anything else, but because of the good 
work that you and others did. And justice is the prerequisite, 
I think, for a sound and functioning society.
    So I do thank you for your exemplary service for so many 
years.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    One other thought I would just like to say. As we look at 
this, I am struck by a saying of a Nobel Prize recipient we 
have in the U.S., Elie Wiesel.
    I think it comes to the core of what you are looking for, 
Baroness, and that is the fact that it is clear that hatred was 
a factor over these many decades.
    And I am reminded of his comment that the opposite of hate 
is not love, but it is indifference. And I think that it is 
important to look at these issues, it is important that we 
understand those issues because we can't move forward without 
that.
    So I thank you for your comments.
    Mr. Smith. Thank you, Baroness.
    Baroness O'Loan. Thank you.
    [Whereupon, the subcommittees concluded their briefing and 
moved to the hearing.]
    Mr. Smith. The subcommittees now will resume their hearing.
    We will now welcome our first witness for the hearing, 
Ambassador Richard Haass, former U.S. Special Envoy to Northern 
Ireland.
    Ambassador Haass served as U.S. Special Envoy to Northern 
Ireland from 2001 to 2003. More recently, 2013, he served as 
the independent chair of the official multi-party panel 
established to address some of the most divisive political 
issues affecting Northern Ireland.
    He is currently the president of the Council on Foreign 
Relations. He has also been the Director of Policy Planning for 
the U.S. Department of State, was Special Assistant to 
President George H.W. Bush, and was Senior Director for Near 
East and South Asian Affairs on the staff of the National 
Security Council from 1989 to 1983.
    Ambassador Haass, the floor is yours.

 STATEMENT OF THE HONORABLE RICHARD N. HAASS, CHAIR, PANEL OF 
           PARTIES IN THE NORTHERN IRELAND EXECUTIVE

    Ambassador Haass. Chairman Smith, Chairman Rohrabacher, 
thank you for this opportunity to discuss the Northern Ireland 
peace process. What I will do is make some fairly brief opening 
remarks and ask simply that my full statement be put in the 
record.
    Mr. Smith. Without objection, so ordered.
    Ambassador Haass. I have twice now been intimately involved 
with this issue. From 2001 to 2003, I was the U.S. envoy to the 
Northern Ireland peace process during the presidency of George 
W. Bush. And as Chairman Smith said, over the last 6 months of 
last year, I was the chair of the Panel of Parties process in 
the Northern Ireland Executive.
    But there are important differences between the two periods 
that go beyond whom I was representing. When I represented the 
Bush administration more than a decade ago, the principal 
challenge was to implement the recently negotiated Good Friday 
Agreement, also referred to as the Belfast Agreement of 1998.
    And as has been referred to, that agreement constituted a 
major milestone, because what it did was to effectively bring 
to an end the violence that had taken over 3,500 lives over 3 
decades.
    The 1998 agreement and the subsequent efforts, to be sure, 
advanced the peace process, but in no way did they complete it, 
nor did they bring about a normal society. This is not simply 
my judgment. This judgment was and is widely shared.
    Indeed, in the spring of 2013, the office of the First 
Minister and deputy First Minister in Northern Ireland proposed 
a process that would tackle some of the remaining issues. This 
process would be one that would involve all five parties of the 
Northern Ireland Executive and it would require, in their view, 
an independent chair.
    I was then asked by the First Minister and deputy First 
Minister in July 2013 to be that independent chair. And based 
in large part on their support of this process, I accepted, 
after which I asked Professor Meghan O'Sullivan of Harvard 
University to be the vice chair.
    Now, our remit was to forge a consensus among the 
participating parties in three areas: The use of flags and 
emblems both in official spaces and in informal public 
displays; the regulation of the thousands of parades, 
commemorations, and protests that take place each year; and 
contending with the past, the principal subject of today's 
hearing.
    By the end of 2013, we had made seven trips to Northern 
Ireland, as well as visits to London and Dublin. There were 33 
days of meetings, most involving the five parties either 
separately or collectively.
    There were also more than 100 meetings with 500 people, 
representing a wide range of civil society organizations, along 
with business, religious, and political representatives.
    In addition, we received more than 600 submissions from 
individuals and groups on a Web site that we established. And 
the draft agreement that emerged on December 31 of last year is 
now in the public domain.
    And here, too, Mr. Chairman, I ask that it be made part of 
your record.
    Mr. Smith. Without objection, so ordered.
    Ambassador Haass. The goal of this process was to produce 
an accord acceptable to all five parties that would also help 
Northern Ireland address some of the most vexing issues and, in 
the process, reduce sectarianism and promote reconciliation.
    Just to be clear, the text does not always represent my or 
Professor O'Sullivan's view of what would be optimal. Rather, 
the December 31 document is and was our best effort to produce 
a set of carefully balanced compromises that we believed would 
both meet the various needs of the political parties and leave 
the society better off. And we reserved at the time the right 
to issue our own assessments and make recommendations, a step 
we continue to consider and may indeed well take.
    In two areas, in the areas of parades and the past, the 
text yields extensively and fairly with the challenges Northern 
Ireland confronts.
    In the realm of flags and emblems, however, where no amount 
of consensus proved possible, the document essentially calls 
for a follow-on process.
    Now, the draft document has the most to offer in the 
subject of your hearing today, in the area of helping Northern 
Ireland address its past. The proposed mechanisms would 
increase the chances that families could learn more about the 
specific circumstances around and reasons for the death of 
loved ones.
    The agreement--and somewhat different than described by 
Baroness O'Loan--the agreement would create an independent 
Historical Investigations Unit with investigative powers that 
would take the place of both the Historical Enquiries Team, the 
HET, and the historical role of the existing police ombudsman 
office.
    But this new institution would be created and empowered in 
a way that in no way would grant the perpetrators of violent 
acts amnesty. This is an important difference between what was 
proposed here and what is often proposed in other post-conflict 
societies because the agreement, as written, would not require 
that the pursuit of greater information come at the cost of 
potential prosecution.
    And I know Congressman Rohrabacher has some concerns about 
this, and I will be glad to discuss why I believe this, on 
balance, was the appropriate way to proceed.
    In addition, in order to help make better sense of the 
past, one entity was to be established that would also assess 
the presence or existence of certain patterns or themes 
involving both governments and paramilitaries and report on the 
degree of cooperation with this process by both.
    The text calls for public statements of acknowledgment of 
responsibility by individuals, organizations, and governments 
that were involved in the conflict, and I believe such 
statements are essential if there is to be healing at either 
the individual or societal level. The text also establishes new 
mechanisms and procedures to help defuse the tensions around 
parades, protests, and commemorations.
    Now, while a critical component of Northern Ireland's 
culture and history, these events can also be an obstacle to 
good relations. The right of free expression must be balanced 
not only against other rights, but also against the goal of 
creating a less divided society of 1.8 million people sharing a 
space the size of the State of Connecticut.
    The issue of flags proved the most difficult. Flags are the 
most visible and emotive, but not the only representation of 
what many in Northern Ireland hold so dear: Sovereignty, 
allegiance, identity.
    The text calls for public debate across Northern Ireland on 
such issues as flags, emblems, the role of the Irish language, 
a bill of rights, and the commission overseeing this debate 
would then submit a report to the leaders of Northern Ireland 
with its recommendations.
    Our mandate ran until the end of the year, until December 
31. This was a deadline established by the Northern Ireland 
Government, and at that point we ended the talks. Two of the 
parties, Sinn Fein and the Social and Democratic and Labor 
Party, the SDLP, endorsed the text in its entirety; a third-
party, Alliance, endorsed the part of the text that deals with 
the past; and the other two parties, the DUP, the Democratic 
Unionist Party, and the UUP, the Ulster Unionist Party, decided 
not to endorse the text.
    Now, some have interpreted this outcome as an indication 
that the agreement met more nationalist than unionist concerns. 
Both Professor O'Sullivan and I reject this categorization. 
There is a great deal in the proposal for unionists; there is a 
great deal in the proposed text for nationalists. There is also 
a great deal in the text for the many in Northern Ireland who 
are not politically aligned, but who simply want to have a 
better understanding of the past and more reason to look 
forward to their future.
    To be candid, this outcome was a disappointment. The draft 
reflects months of conversations with individuals and groups 
within Northern Ireland as well as the five parties. It 
reflects the often competing preferences of the five parties 
and what was required to bridge them.
    We understand that no party is fully comfortable with the 
December 31 text, and that should surprise no one here, indeed 
no one anywhere. Politics inevitably requires that each party 
accepts some elements it views as disagreeable in order to 
advance the greater good.
    And here I can do no better than to quote Henry Kissinger, 
who recently wrote that the test of any proposed accord ``is 
not absolute satisfaction, but balanced dissatisfaction.'' I 
believe the December 31 Northern Ireland text met this test and 
then some.
    Leaders must be prepared to take and make this case to 
their constituents and to the broader public. The true 
definition of leadership is a willingness to tell your 
supporters, not just your opponents, what they do not want to 
hear. A second requirement of leadership is to speak to those 
across the political divide, to reassure them that their core 
interests are not threatened, and that what is in the interest 
of one party or group or tradition need not be inconsistent 
with that of the other. And in the case of Northern Ireland, 
there is a third requirement for leaders: As appropriate, to 
acknowledge responsibility for the past.
    Since December 31, the parties have held a number of 
meetings in an effort to narrow their remaining differences and 
to add some needed detail, such as in the area of what would 
constitute a code of conduct for parades and protests. This 
effort, though, came to something of a halt when it was 
disclosed that the British Government had sent letters to 
nearly 200 people, assuring them that they were not wanted by 
the police. Virtually all I know about these letters is what I 
have learned from public exchanges over the past few weeks.
    It is my understanding that the letters essentially inform 
recipients that there was insufficient evidence to pursue or 
prosecute them should they return to the United Kingdom. But it 
is also my understanding that the letters made clear that 
prosecution could come about if new information regarding 
violations of the law came to light. In short, the letters did 
not offer amnesty, and I know of nothing in their content that 
would justify anyone walking away from the process we are 
discussing here today.
    So where do things go from here? I agree with the First 
Minister when he says that the three issues at the center of 
the talks still need to be dealt with. To this, though, I would 
add a sense of urgency. The passage of time will not heal 
Northern Ireland's society. To the contrary, absent political 
progress, the passage of time will only create an environment 
in which social division intensifies, violence increases, 
investment is scared off, alienation grows, and the most 
talented depart.
    Northern Ireland is often cited as a model of peace 
building, but this is premature. Yes, the society has come a 
long ways from where it was two decades ago, but it still has a 
long ways to go before it sets an example others will want to 
emulate. I hope Northern Ireland's leaders are up to the 
challenge.
    Mr. Chairman, Mr. Congressman, thank you again for this 
opportunity. I look forward to answering your questions.
    [The prepared statement of Mr. Haass follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Ambassador Haass, thank you very much. And thank 
you for the enormous amount of time you have spent over the 
many years, including much of last year, in trying to cobble 
together a meaningful and responsive approach that will really 
take Northern Ireland forward and make progress.
    You know, in her testimony in the third panel, Julia Hall 
from Amnesty International points out that the current 
mechanisms, while they have worked for some, have failed to 
conduct prompt, thorough and effective investigations in an 
independent and impartial manner in line with the UK's 
international human rights commitments. And she points out that 
repeated investigative failures across the mechanisms have 
crucially--I think she means critically, or maybe crucially--
undermined confidence and trust in her ability to deliver the 
truth about the past; and secondly, points out that the 
mandates, there has been a piecemeal approach to investigations 
adopted in Northern Ireland.
    It would appear that both Baroness O'Loan and you are both 
calling for a new, much more effective mechanism. And, again, I 
think many lawmakers and policymakers in this town have moved 
on to other things, the reason why this hearing has been 
convened.
    Could you speak to those criticisms of the current 
mechanisms, while well-meaning, unwittingly have not produced 
the record of results that one would have hoped for? And then 
this whole idea of unfinished business. I would hope that some 
of our friends in the media today or even tomorrow, when they 
write their articles and publish their stories, would talk 
about the unfinished business. You have it in your report. I 
have read it. It is excellent. It makes so many very fine and, 
I think, very forward-thinking and very credible 
recommendations, yet most people don't even know about it.
    Ambassador Haass. Well, thank you, sir, for what you said. 
Just to be clear on one thing, it is not my report or our 
report.
    Mr. Smith. Good point.
    Ambassador Haass. It is a report that grew out of this 
process and our attempt to bridge the political divides, yet 
still put forward a set of ideas that, if adopted, we believe 
would leave Northern Ireland better off, considerably better 
off.
    On your question, the current approaches, they are 
multiple. Essentially you have four existing approaches. They 
are time-consuming; the fact that we are still talking about 
unfinished investigations tells you that. They are in some 
cases extraordinarily expensive. In some cases they are quite 
distracting, because groups like the current police service 
have everyday tasks to carry out, yet they are still also 
obligated to deal with the heavy burden of the past. Plus, 
despite all this, despite all this effort and investment, some 
of the current efforts do not enjoy the kind of broad 
legitimacy that one needs if they are effectively to deal with 
the past.
    So it is not a criticism about effort; it is not a 
criticism of motives; it is simply an observation, if you will, 
about results. And the reason, therefore, we came up with the 
idea of creating a new and independent Historical 
Investigations Unit with investigative powers was to try to 
deal with this, the fact that the current approaches were time-
consuming, a bit of a distraction, and lacked legitimacy 
because they were seen as under the police service rather than 
distant from them.
    So that is why we have come up with this approach, and we 
believe it is the best way of threading the needle. It is not, 
as the Baroness suggested, what has been put forward in this 
report, under the police service. That is simply incorrect. It 
is also independent.
    Now, in a democracy--and we understand this from our own 
system; indeed, I used the analogy at times in the talks--we 
have things like the Supreme Court, we have the Federal 
Reserve, we have independent institutions. But in a democracy 
you still need accountability. You can't have free-floating 
institutions that don't have a degree of tether or of 
accountability, and therefore there has to be an appointments 
process. There has to be some oversight process in a democracy. 
And what we tried to do was come up with the best way we knew--
in consultation with the five parties--of threading that 
needle, of coming up with something that was as independent as 
could possibly be construed or constructed, yet at the same 
time have adequate oversight and accountability, and we believe 
that what is in the December 31 text does exactly that.
    On your larger point, and I tried to get to it in my 
remarks, when I was asked to do this, and I accepted it, a lot 
of people seemed surprised, and they seemed surprised back in 
New York or Washington, but also even in London. And everyone 
said, to a person, I thought this was resolved. Didn't you have 
the Good Friday or Belfast Agreement in 1998?
    And what I believe that highlights, and you got at it in 
your opening statement, there is a difference between, if you 
will, ending a war and building a peace. Any society coming out 
of something like three decades of Troubles--and Mr. 
Rohrabacher talked about the Civil War in this country--any 
society like that is traumatized for obvious reasons. It is 
traumatized psychologically, physically, economically and 
politically. There are all sorts of divisions, wounds, damage 
and the like. And obviously Northern Ireland was no exception. 
One day North Korea will be no exception. I look forward that 
day happening when it gets out from under the rule and the 
division it has known.
    And so what this showed to me is that even though Northern 
Ireland had emerged from the Troubles, and most of the violence 
had stopped, it had not become anything remotely like a normal 
society. If you walk down parts of Belfast, you were still 
confronted by concrete barriers separating communities. Upwards 
of 90 percent of the young people still go to divided schools, 
single-tradition schools. Neighborhoods are still divided.
    I don't see the society sowing the seeds of its own 
normalization, of its own unity, if neighborhoods and schools 
are still divided. What worries me in that kind of environment, 
particularly where politics are not shown to be making 
progress, alienation will continue to fester, and violence, I 
fear, could very well reemerge as a characteristic of daily 
life.
    So it is premature to put Northern Ireland, as much as we 
would like to, into the outbox of problems solved. I would love 
for it to be there, and I look forward to that day, but, quite 
honestly, it is not there yet.
    Mr. Smith. I thank you for that. I hope that that is a 
message that lawmakers and others will convey, especially at 
the end of the week when so many people will make their way 
from the Republic of Ireland and Northern Ireland as part of 
the St. Patrick's Day festivities, because, again, I think 
there is a superficial understanding about all done, as you put 
it, it is finished, time to move on, and we need, again, to 
redouble our efforts, again, to take your blueprint, and let 
people know that there is much more that needs to be done.
    Let me just ask you, if you would like to respond to it, 
you know, the Finucane case, the horrible, horrific murder of 
Patrick Finucane. His wife, who is here, Geraldine, who was 
wounded, the family was all there, and they have on several 
occasions testified through our subcommittee in an appeal to 
the British Government, different Prime Ministers to finally do 
what they promised to do, and that is implement or create and 
implement a public inquiry.
    Judge Cory sat where you sat, Ambassador Haass, and he 
couldn't have been more emphatic. He spoke for the better part 
of an hour, and he kept getting back to the unfinished business 
of the Finucane murder and the collusion that was inherent in 
it.
    Would you want to speak to that? I mean, this is like one 
festering sore. I absolutely am in awe of the courage and the 
tenacity of Geraldine and her family in carrying on this call 
for an accountability. Would you want to respond to it?
    Ambassador Haass. I am happy to.
    One has to be impressed by the courage of the Finucane 
family and by what they have had to endure. The report deals 
with the question of inquiries, but essentially leaves it to 
the British Government to make a decision as to whether it is 
or believes that is the best way to deal with the, as you 
describe it, unfinished business.
    The bulk of the report is on other mechanisms for dealing 
with all sorts of situations that have never been 
investigated--still there are hundreds and hundreds of murders 
and deaths that have never been investigated, and in many cases 
where they have been investigated by whatever mechanism--there 
are multiple mechanisms, as you know, for investigating them--
people are not satisfied with the results.
    And we also create a mechanism where there is reason to do 
so for reopening certain things. So that is essentially the 
approach. But that will have to be a decision by the British 
Government, whether they believe that it is worth, from their 
point of view, going down the path of another inquiry.
    Mr. Smith. By having promised it, it is just we are looking 
for promise fulfilled.
    Let me ask two final questions. Nuala O'Loan made a very 
strong point in both her oral and written testimony about the 
legacy unit. It seems to me that when you have former Special 
Branch officers in charge of what is allowed out and, you know, 
revealed versus what is not, that without some kind of 
oversight that is very real, that is an engraved invitation, it 
would seem to me, to just continue hiding a truth that may not 
be very pretty.
    And secondly, with regards to the Military Reaction Force, 
as one of our witnesses Eugene Devlin, who was shot, and, as he 
says in his testimony, Daniel Rooney, age 18 like himself, was 
killed by a bullet, and the information now that is becoming 
much more visible about this Military Reaction Force. Your 
thoughts on that?
    Ambassador Haass. Well, again, that is why there are two 
new mechanisms that this report recommends. One is a Historical 
Investigations Unit, which would look at things through a legal 
lens; and then there is a separate information unit that would 
be created to encourage people to come forth, because as it 
turns out, there are a number of survivors and victims whose 
priority, if you will, is not necessarily in the legal realm, 
``justice'' or punishment, but rather their priority is to 
simply find out what happened, to get the facts about what 
happened to a loved one. And there are certain incentives put 
forward in order to encourage individuals, organizations, and 
governments to cooperate with this information pathway.
    Now, at the same time, there is nothing in the information 
pathway that provides amnesty; it simply provides what we would 
call limited immunity. So information introduced there cannot 
be used for prosecution, but if other information is somehow 
gained through other means, and that warrants prosecution, 
prosecution could still happen.
    And I think it is important that governments, whether it is 
the British Government or the Irish Government, are involved in 
this process fully, and I believe that obviously paramilitary 
organizations need to be involved in this process, paramilitary 
or other organizations across the board, in no small part 
because the bulk of the violence was done at the hands of 
paramilitaries. But governments do have special obligations 
under European law, and obviously, I believe the British 
Government needs to be a participant in dealing with the past.
    Can I say one other thing about it? Because it gets at Mr. 
Rohrabacher's comments.
    Mr. Smith. Sure.
    Ambassador Haass. The point of view he talked about, and I 
think the analogy you used was the scab. There is a point of 
view that echoes what he says, and it is the idea that in order 
to deal with the future, you have to let go of the past. There 
is that. And public figures and private figures in Northern 
Ireland do articulate that.
    On the other hand, I came away persuaded that it wouldn't 
work in this case; that you would never get to the point of 
healing, in a sense, to use his analogy--and analogies are 
always dangerous, but I will use it--you would never form the 
scab without a process, you would never get to the point of 
healing, and that you needed a process.
    And I came to this, by the way, after some of the most 
emotional meetings of my career, which was meeting with the 
victims and survivors and meeting with the families. And you 
can't emerge from these meetings and not be powerfully affected 
by it.
    And when I met with these individuals, and I met more 
broadly with people in Northern Ireland, I came away persuaded 
that you needed a process that would deal with the past. We 
have talked about, too, a legal dimension; we have talked about 
also an information availability dimension.
    There are other aspects as well. I think this society 
doesn't teach the past well. We need a curriculum that deals 
better with it. We need a museum. Why wouldn't there be 
somewhere a museum dedicated to the Troubles, not that you try 
to come to a common narrative. I, for one, believe that is 
unrealistic at this point given how divided the society is. But 
why couldn't you have a place where competing narratives are 
allowed, where people understand the facts, here is the 
timeline, here are the facts, and people can put forward 
different narratives?
    But I do believe this is a society that will not be able to 
get beyond what it has gone through unless there is something 
of a political, but also psychological process of contending 
with it. Otherwise what will happen is different communities 
will live with their own versions of the past, and I came away 
thinking that there would never be the kind of bridge-building 
or normalization we and they want to see without a 
multidimensional approach to dealing with what happened.
    Mr. Smith. Mr. Keating.
    Thank you very much.
    Mr. Keating. Thank you, Mr. Chairman.
    At the outset, I do want to say this, that I will 
apologize. I have got dual responsibilities. I am managing the 
floor debate in just a short period of time. So in particular 
to Ms. Finucane and Mr. Devlin, I apologize if I am interrupted 
back and forth doing that, as well as to you, Dr. Haass.
    Quickly, you mentioned the prospects of further violence. 
Although the political violence has declined significantly, and 
fatalities have almost been eliminated since the agreement, 
tensions remain strong between unionist and nationalist 
communities. Now, to what extent are paramilitary organizations 
on both sides still capable of disrupting the peace? What is 
your assessment of the risk of new outbreaks from these 
entities?
    Ambassador Haass. That is a question I ask myself a lot. I 
think there are two kinds of violence we have to worry about in 
Northern Ireland. You have got one, which is paramilitary 
violence. You still have so-called splinter groups on the so-
called Republican side in the Northern Ireland context. And 
while I was there, there was more than one car bombing and so 
forth. There were some also letter bombs sent. So you still 
have that. And you still have paramilitary groups on the 
loyalist side who are in a position to carry out violence.
    So I can't give you, if you will, a quantitative 
prediction. It is simply my sense that the possibility of a 
paramilitary violence is real, and then I want to come to the 
other form of violence which could affect it, which is 
political protests of various types. We have seen now a larger 
number of protests or marches or both where then you have had 
friction--I don't know any other word to use--with police 
forces. And you had a large number of policemen hurt over the 
last year as well as individuals. What worries me, then, is the 
possibility for this kind of violence to continue to get worse 
and whether the two kinds of violence could begin to affect one 
another.
    If you begin to have greater violence at the political 
level, I worry that that creates a context in which then there 
could well be greater violence at the paramilitary level. 
Indeed, this is the history of Northern Ireland. Early on, 
before the Troubles in the early stage, you had political 
protest and violence, and then ultimately it led into a much 
more dangerous era of paramilitary violence, and I do not want 
to see history repeat itself.
    Mr. Keating. Your last comments actually are along the 
lines of one of my questions. The countries in Central and 
Eastern Europe have enjoyed mixed success in dealing with 
difficult historical issues, whether it is World War II or the 
Holocaust. In some cases, ostensibly independent institutions 
charged with historical investigations have been unduly 
politicized as a means of influencing public opinion, shaping 
political debate, or benefitting certain political actors or 
parties.
    In other cases, in the case of Germany and Poland, 
academics and educators have successfully collaborated to 
develop historical curriculum taught in both countries that 
encourages students to critically consider competing historical 
narratives as a means of promoting reconciliation.
    What are the prospects, long and short, about this? I am in 
no way equating the Holocaust or other things, because each 
instance and terrible instances in our history define 
themselves, but one of the lessons of that, really, has been 
informative. And I look at groups in the U.S., like Facing 
History and Ourselves and other groups from an academic 
standpoint that have done so much to foster a greater 
understanding. And you said maybe you never can get to full 
agreement on the issues that you discussed, but we can at least 
foster the kind of academic educational narrative that is 
important in this instance.
    Ambassador Haass. I think you are exactly right. I think 
some of it is going on, as best I can tell. You see it at the 
academic level; you see it even with some of these victims and 
survivor groups. A lot of these groups bring people together 
from different traditions.
    One of the things that makes these meetings powerful is you 
have people who may have suffered at the hands of, say, a 
Republican paramilitary from the Provisional IRA, and people 
who suffered from a loyalist paramilitary, and then others who 
suffered then from the hands of that British troop. And there 
is an ability, in that case, to talk across certain divides.
    I would simply say the academic approach has been limited. 
There is a lot more that could and should be done. I would like 
to see--how would I put it?--vehicles created where academics 
would come together. For example, I would like to see the 
leading historians of Northern Ireland come together to try to 
do what you suggest, to come up with a--if not a single history 
of the past, then a collective history, because, again, I think 
it is important that young people understand what happened, the 
reality of what happened.
    Let me give you one reason. I don't want young people to 
only hear the story from one side, and I never want anyone to 
get caught up in the ``romance of it all.'' It would be a real 
tragedy if another generation of young people thought that 
``fulfillment'' was to be found in the path of becoming a 
paramilitary. And it would be good if there was a place they 
could go to where they would see the costs to individuals and 
the society of that kind of an experience.
    That can only happen if historians from the various 
traditions come together and try to produce a living, not just 
a physical, monument to the past. The shorthand we sometimes 
used was a ``museum of the history of the Troubles.'' Something 
like that, I believe, would be extraordinarily valuable.
    Mr. Keating. Just one more thought I had, and this is such 
a profound issue, and it works on so many levels. There are a 
couple of demographics that I just want to raise and see if you 
think at all this can foster a better relationship.
    Number one, the remains of disparity and unemployment with 
Catholics that are much higher that are there, that, left 
unaddressed, and not having the so-called benefits of a peace 
dividend, I think--I just want to ask you what effect that will 
have. And number two, the other demographics are the 
population, the number of Irish people are--it is growing, and 
the Protestant people are diminishing somewhat, and then you 
have that shift that is going on there.
    Will either of those things have an effect, positive or 
negative, on efforts to bring peace?
    Ambassador Haass. On the first point, which is 
unemployment, it is high among Catholics, as you say, but it is 
really high among poorly educated young people in both 
communities, which is one of the problems, because those are, 
if you will, the foot soldiers of some of the violence that we 
are seeing.
    What this argues for is two things: One is specific 
projects that would employ people with their skill sets, and 
there are lots of ideas around for development. Indeed, there 
was one area where there was a big project that was put 
forward, and it couldn't go forward at what is called Maze Long 
Kesh because it is also the site where you have the prison and 
the hospital which was associated with where a lot of people 
were incarcerated during the Troubles, it was where Bobby Sands 
had his hunger strike, so it has taken on obviously a 
politicized position in Northern Ireland life.
    But there are a lot of potential resources that could go to 
develop that area, put aside the question of what to do about 
the historic places, and a lot of young people can be employed. 
So projects linked to getting the communities working would be 
great.
    The larger point, as my former boss Colin Powell used to 
say, is that capital is a coward. Investment in Northern 
Ireland has to compete with investment from everywhere else, 
and capital and investment will stay away from Northern Ireland 
if its future looks uncertain. So it is one of the reasons that 
it is important that politics advance, or, quite honestly, 
investors will take their dollars elsewhere.
    In terms of population demographics, Protestants still now 
hold what I would call a plurality, as the most recent numbers 
I have seen are slightly below the majority. The Catholics' 
share is less than that, but it is slightly going up. And I 
think it obviously is part of the backdrop to this process. It 
is one of the reasons that people need to constantly reach 
across the community divide and not just speak to their own 
supporters, but to reassure people about the future.
    You know, it is interesting; the document that brought us 
in here, that created this panel that I was asked to chair, the 
title of it was ``Together.'' And the whole idea was to create 
a Northern Ireland of a shared future. And it had all these 
grandiose plans. What is missing, 90 percent of life, as we 
used to teach, is implementation, and we need to see some of 
these plans for a shared future begin to be realized. But as 
long as people see separate futures, then it is going to be 
very hard to make the shorter progress that, in a sense, both 
communities, I believe, need.
    Mr. Keating. Great.
    And just one more in the nature of comment, should I not be 
here for Ms. Finucane and Mr. Devlin's testimony, is that I 
must tell you as a former prosecutor and someone that was 
involved in our own State as chairman of judiciary, I do 
believe very strongly that going forward, if we are going to 
respect the rule of law, we have to have confidence going 
backwards that if there wasn't rule of law, that we do things 
to acknowledge that, correct that, because the message will be, 
well, the rule of law isn't something that transcends time. It 
is conveniently turned on and turned off. And I think the 
Commission's effort and those efforts to go back is important 
for the future to instill respect in that rule of law. So----
    Ambassador Haass. I am with you on that. I agree about the 
past, and I also agree with it about the present. One of the 
things that was a stumbling point was the idea to embed a code 
of behavior for all these marches and parades and attending 
protests and to embed it in the rule of law. And that is 
essential for a democratic society.
    So I think it is true for the past; I think it is true for 
the present. Obviously, and you know better than I do, it has 
got to be administered fairly and efficiently and all that. But 
I believe a democratic society rests on it, and Northern 
Ireland can't be an exception.
    Mr. Keating. I yield back.
    Mr. Smith. Thank you, Mr. Keating.
    Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    Just before I go into questions, a little bit about a month 
ago I was called over to the Japanese Embassy, and I was asked 
to provide the toast to Japanese-American friendship, and I 
think it was the Emperor's birthday or something like that. And 
I did that, and I felt real good about it, and I knew my father 
would approve.
    My father was a United States Marine in World War II, and 
how ironic that his son is at the Japanese Embassy providing a 
toast to the friendship between the Japanese people and the 
people of the United States. There was a lot of blood there, a 
lot of bloodshed in that relationship, not only U.S. Marines 
being killed, but hundreds of thousands of Japanese civilians 
being evaporated by our bombing, which was done in order to end 
that war, I understand.
    But it seems to me that today, Japan and the United States 
have a wonderfully close friendship. We have had that for 
decades. And it is so difficult for me to see two people who 
are separated by their Christian religion not being able to 
come to have a greater peace than they have in Northern 
Ireland.
    Let me ask you, and, by the way----
    Ambassador Haass. Can I say one thing?
    Mr. Rohrabacher. Yes. Go right ahead.
    Ambassador Haass. I apologize for interrupting.
    What is interesting to me, though, about what you said, 
well, two things. One is one of the things we have called for 
in this report is not simply apologies, but acknowledgments, 
that people talk about their responsibility and role in the 
past.
    Honesty will go a long way in Northern Ireland. The more 
honesty there is and people accepting personal responsibility, 
that kind of personal gesture, I believe, will have 
extraordinary impact. When we have seen it already, it has had 
extraordinary impact.
    The other thing that came to mind what you were saying----
    Mr. Rohrabacher. Before you go on to your second point, I 
agree with you 100 percent in that I think that acknowledging 
one's faults, for that to have a positive result also has to 
have forgiveness. I mean, that is the other half of the 
equation. That is what Christ talks to us Christians about.
    And excuse me. Go ahead.
    Ambassador Haass. The other thing--and I know before you 
were raising the question of the some of the dangers or risks 
of too much a focus on the past, but take another analogy from 
Asia. You used the one of the United States and Japan, but look 
at the Japanese-Korean relationship and the Japanese-Chinese 
relationship. They are increasingly--held back doesn't begin to 
get at it; poisoned might not be too strong of a word--by the 
legacy of the past.
    And the fact that you have totally different perceptions 
and takes on the past, you teach it different ways in the 
schools, and it is both impressive and depressing how much of 
the current diplomacy is affected and limited by different 
perceptions of the past. So, again, to me that is a lesson 
about why sometimes you do need to deal with the past before 
you can effectively deal with the future.
    Mr. Rohrabacher. That is a very good point.
    Let me ask you something about your knowledge, and, first 
of all, thank you for the wonderful work you have dedicated 
your life to, and it is something that is so admirable, that 
type of--what you are expending your energy or intellect and 
your time of your life being a peacemaker; as I say, blessed 
are the peacemakers, et cetera. And that is why we are so proud 
to work with Chairman Smith, because he has dedicated his life 
to these type of things as well.
    Let me ask you about Ireland. Has there been any evidence 
that Protestants have been discriminated against in southern 
Ireland, in the regular part of Ireland?
    Ambassador Haass. In the Republic of Ireland?
    Mr. Rohrabacher. Yes.
    Ambassador Haass. I don't know the answer to that question 
about the state of Irish society. I have never heard of that 
recently.
    Mr. Rohrabacher. Yeah. I have never heard about it.
    Ambassador Haass. Yeah. I mean, the population of Ireland 
is also, I think--my numbers could be off here, but it is 
upwards of 97, 98 percent Catholic. So all I can say is I have 
not heard reports of that, but I could be--you know, I am 
certainly uninformed, and I could always be misinformed.
    Mr. Rohrabacher. I think there was a lot of arguments when 
Ireland was separating from British domination that the 
Protestants--there would be retaliation against the 
Protestants, and I didn't see it. I mean, I have studied--I 
love Ireland. I love the history and the culture, the music, 
and the beer. I just love Ireland, and I have studied a lot 
about it, and I didn't see any repercussions against the 
Protestants when the British left.
    Now, I will say this: I personally believe the issue that 
we are talking about today would not exist had the British not 
``shnookered'' the Irish into the original agreement to give up 
those five counties. The bottom of the line is Ireland is 
Ireland, and they are all Irish, and had that not--we wouldn't 
be facing this right now. And it is six counties, pardon me. I 
will leave the British with one.
    But the fact is that perhaps today, perhaps the real 
solution lies--and from what I understand, there is only one 
county that has a very big majority of Protestants over 
Catholics. Maybe if we let these people have their right to 
self-determination via each county voting on it might lead to a 
restructuring of the whole system there, which might lead to a 
little better feelings after a period of time when people have 
to live together. That is just a thought.
    But let's get to the question now. And the question is 
this: The Good Friday agreements happened in 1998.
    Ambassador Haass. Yes, sir.
    Mr. Rohrabacher. That is 15 years ago. And so it has been 
16 years since the violence stopped.
    Ambassador Haass. For the most part.
    Mr. Rohrabacher. Okay. During that time period, I don't see 
anything wrong with people saying anyone held accountable for 
any acts of violence during this time when there wasn't 
official peace and people were negotiating it, I could 
understand that. But going back beyond the 16 years, the 16 
years of peace, before that we just heard the Baroness talking 
about maybe giving people 2 years in prison for someone who was 
maybe in their twenties when something happened or thirties. Is 
that part of the plan for peace?
    Ambassador Haass. Well, again, two separate issues. One is 
the ability to prosecute, and the other is the question of what 
would be the penalty for those found guilty.
    You know, I believe, again, Mr. Keating and I had this 
exchange, and I believe for democratic societies there needs to 
be the ability to prosecute for crimes for which there is no 
statute of limitations. I think that is true from a political 
and legal point of view.
    I also came away from my experience here thinking that it 
is necessary politically and psychologically; that, again, for 
people to be open to a future, they have got to feel that the 
past has been fairly and comprehensively dealt with. And I 
don't believe that should be something, by the way, that 
individuals have the right----
    Mr. Rohrabacher. I don't know. I wish I could tell you that 
I believe in what you are saying, because I know that that is 
the theory that we can--something we can believe in that will 
create a better world. But, again, my father was a Marine in 
World War II. A member of our church, was my father's best 
friend, called me aside one Sunday and said, you know, I was in 
Guam, and we went out after the Japanese had surrendered, and 
there were little groups out there, and we surrounded a group 
of 13 of them, 13 or 14 of these Japanese, around a campfire 
one night, and we had a Japanese speaker with us. And we came 
out and we said, hands up, surrender, and they all did. And one 
of our guys just started shooting, then we all started 
shooting, and we killed all of them.
    And I mean, that was an atrocity. And during the Battle of 
the Bulge, there is another case where I know of where our 
soldiers actually killed a lot of German soldiers, knowing full 
well the Germans were killing our soldiers, however.
    It seems that if we are going to have a better world, we 
have got to recognize that those things are evil, and that evil 
does lurk among humankind, but that if we try to go back, I 
don't think it would be fair to that Marine to go back and then 
to charge him with a war crime. Do you?
    Ambassador Haass. I am uncomfortable commenting upon other 
situations, because I know enough to know that every situation 
stands on its own and is different and unique. I would simply 
say, though, one of the things you have to think about in the 
case of Northern Ireland is you are not thinking about two 
different countries, you are talking about a society that we 
want to be commingled, which is not divided.
    And, again, I don't believe it is realistic to think that 
you will have a unified society if you have someone across the 
street living from someone else, and people know that this 
individual was involved in certain activities and that they 
lost a loved one because of it. I think you are expecting too 
much from human nature to think that--that people can get 
beyond that kind of an experience.
    And, again, we may just simply disagree here. I am not sure 
it is healthy for a society to do that. I do think there has to 
be a sense of accountability and responsibility. Now, what 
Northern Ireland has tried to do is put certain ceilings in 
many cases on the jail penalty and time that individuals would 
have to serve. And I don't want to speak for anybody there, but 
my sense is that is the way they have tried to compromise this, 
to basically have prosecution continue where it is warranted, 
but also to have a degree of mercy, if you will, or limits on 
the penalties that would be incurred by individuals who 
committed crimes during the periods of the so-called Troubles. 
As you say, it is different after 1998.
    So I think that has been the balancing act that people in 
Northern Ireland have had and more broadly have come up with 
there.
    Mr. Rohrabacher. Well, thank you very much. And I know I 
sound a little bit too idealistic here maybe, but I do think 
that forgiveness--if someone really has contrition, forgiveness 
goes a long way toward creating more peace in the world. Thank 
you.
    Mr. Smith. Thank you.
    Ambassador Haass. Thank you for what you said.
    Mr. Smith. I would just comment, if I could, very briefly. 
I will never forget, I was part of a reinterment ceremony at 
Srebrenica, with Reis Ceric, who was the Grand Mufti; Haris 
Silajdzic, who was President. And I remember hearing from 
widows who told me that there were people in the police to that 
day, this was 9 years ago, who were part of the genocide that 
was committed against, in that case, the Muslims who lived in 
Srebrenica, which was supposed to be a U.N. safe haven, and the 
horror that they felt knowing that in their police department 
sat someone in good standing still presumably meting out 
enforcement of law who had committed atrocities. And I think 
what we are trying to, and what you have done so well, and what 
others have done so well, is to say there is no statute of 
limitations for heinous crimes. There can be forgiveness, but 
that doesn't preclude justice, and justice means that there 
needs to be accountability.
    And our biggest fear has been in the collusion side, and 
that is what got me into this, holding hearings, doing 
legislation that ensured that when certain people in the RUC 
came to the United States to get training at the academy, the 
police academy in Virginia, that they were fully vetted, 
because so many people had been just moved up, even got, we 
believe, moved up in rank and were grandfathered in. I mean, 
that was one of the flaws of the Patton Commission, that it 
grandfathered in, we believe, some people who had committed 
horrific acts of cruelty.
    And just like with our own civil rights movement here, if 
you committed a crime, if you blew up an African American 
church and we find you, just like we will prosecute. And I 
think that is what we are trying to really--that message that 
there is no immunity for that kind of impunity. So I thank you.
    Ambassador Haass, any final comment before we move on?
    Ambassador Haass. I would simply say that what was 
suggested in this report, this debate is a real debate. And 
that is why for certain families what was created was a path 
that would allow them simply to get information, and that 
people would then be encouraged to provide them information so 
they could psychologically and emotionally deal with what 
happened to their own families, and the person could know that 
that information itself would not be then handed over to 
authorities.
    So it was not a ``prosecution first'' approach. We wanted 
to make sure that--on the other hand, we didn't want to 
preclude prosecution if that is what the state warranted was 
necessary, and if that information could be gotten through 
other means. That is the whole concept, as you know, of limited 
immunity.
    So, again, all of this is a balancing act designed to 
ensure that certain principles are respected about the past and 
also continue to be respected in the present about the rule of 
law; yet also, to take into account the fact that there is, 
what, thousands and thousands and thousands, tens of thousands 
of individuals and families in Northern Ireland that have this 
tremendous burden of the past. And they have a special place in 
this society, and we wanted to give them a degree of choice in 
how they would pursue what it was they thought was necessary. 
And I never use the word ``closure.'' That sounds, I think, 
offensive for outsiders to say, but at least a degree of 
significant comfort with what happened.
    So what was laid out was a set or a menu of possibilities, 
because there is no one single answer for every individual or 
every family. And what I think is in this--and, again, it was a 
collective effort, so I am not praising myself--but I actually 
think is a fairly unique approach, which is something, I 
believe, if adopted, would be very good for Northern Ireland 
and would be worthwhile for other societies that have gone 
through similar types of experiences to look at, a way of 
balancing individual needs and collective needs, as well as the 
past, the present and the future. And it is an attempt to come 
up with some trade-offs.
    And I come back to Henry Kissinger's line, there is always 
going to be a balance of dissatisfactions, and that, to me, is 
the element of political possibility. But more positively, 
there is also a balance of satisfactions. In every side, if 
they look at what are the details of the past, if they look at 
what could be there with flags, or what is there with parading, 
there should be enough there that, if adopted, it would not 
hurt them politically, and it would help the society as a 
whole.
    Those are two pretty good criteria, that they could 
politically manage it, and the society would be better off. And 
that is what we tried to do. We think the document does it. And 
we very much hope that people will come to that realization. 
There is no way to ultimately avoid these three issues, and 
there is no way you can or should in particular avoid the set 
of questions about the past. So I am very hopeful that it is a 
question of when and not if the political leaders of Northern 
Ireland come to that realization and then act on it. So, again, 
I appreciate what you all have done in this hearing by putting 
a spotlight on it. So thank you very much.
    Mr. Smith. And, again, the December 31 proposed agreement 
remains viable?
    Ambassador Haass. Absolutely.
    Mr. Smith. Great. Thank you.
    Ambassador Haass. Thank you, sir.
    Mr. Smith. Thank you very much, Ambassador Haass.
    I would like to now invite our second panel, if they would 
make their way to the witness table, beginning first with Ms. 
Geraldine Finucane, wife of slain human rights attorney Patrick 
Finucane. As we all know, in 1990, loyalist government forced 
their way into her home and their home and murdered her husband 
Patrick Finucane, an Irish human rights lawyer.
    She has advocated long and effectively for full disclosure 
of British state collusion in her husband's murder. She has 
been all over the world, including the United States many 
times, and including before this subcommittee and before 
Congress on several occasions.
    Collusion in the Finucane murder remains one of the major 
unresolved questions in the peace process, and the peace 
process is an ongoing venture, and the British Government's 
refusal to fulfill its promise undermines that very process.
    And, again, I want to welcome her and thank Geraldine for 
her unbelievable courage and tenacity.
    We will then hear from Mr. Eugene Devlin, who was born and 
raised in Belfast. On the night of May 12, 1972, Mr. Devlin, 
with friends, went to a disco, and on their way home was shot 
by the British Army undercover unit, the Military Reaction 
Force, which was a covert, intelligence-gathering and 
counterinsurgency unit in Northern Ireland during the Troubles.
    He later went to London to work, where the bar he was 
working in, it was bombed after 2 weeks. Mr. Devlin eventually 
came to the United States and today owns and operates a bar and 
restaurant in Red Bank, New Jersey. We had a very good 
conversation before the hearing, and, again, I thank him for 
coming and testifying about his ordeal and that of others who 
have been killed by the Military Reaction Force.
    And then we will hear from Julia Hall, a human rights 
lawyer, Amnesty International's expert on criminal justice, 
counterterrorism and human rights in Europe. Her current work 
focuses on accountability of human rights violations in 
countries with a history of political violence, including 
Northern Ireland, and for violations committed in the context 
of the Global War on Terrorism.
    Ms. Hall served on the research and editing team for a 2013 
Amnesty International report on Northern Ireland and authored 
another research report on Northern Ireland that was published 
in 1997.
    So, Geraldine, if you could all come. And as you physically 
come to the witness table, without objection, testimony from 
Anne Cadwallader and Alan Brecknell of the Pat Finucane Center 
will be made a part of the record as well as a submission from 
the Professor Patricia Lundy of the University of Ulster.
    Ms. Finucane, if you can proceed.
    Mr. Devlin, if you could please come on up, as well as Ms. 
Hall.

STATEMENT OF MS. GERALDINE FINUCANE, WIFE OF SLAIN HUMAN RIGHTS 
                   ATTORNEY PATRICK FINUCANE

    Ms. Finucane. My name is Geraldine Finucane. My husband was 
Patrick Finucane, a Belfast solicitor murdered by loyalist 
paramilitaries on the February 12, 1989. My family and I have 
campaigned since the murder for a full public, independent 
judicial inquiry into the circumstances surrounding the 
killing. We have done so because of compelling evidence that 
his murder was part of a widespread British Government policy 
of collusion between the state and loyalist paramilitary.
    Our suspicions, based on the evidence which has emerged 
over the last 25 years, received official confirmation in 
October 2011 when the Prime Minister David Cameron told us 
personally that on behalf of his government, he accepted that 
collusion was real and directly led to the murder of my 
husband.
    The campaign has only had one objective from the outset: To 
discover and uncover the truth behind Pat's murder. From the 
very night that Pat was murdered, we knew the authorities were 
involved in some way, but we did not know the details. Pat had 
been subjected to constant threats from police officers during 
his professional career, threats made via his clients, threats 
that started as derogatory comments escalated into death 
threats.
    Then, less than 3 weeks before his death, a government 
minister, Douglas Hogg, M.P., made a statement in the houses of 
Parliament that marked Pat and a small number of other 
solicitors for murder. He said, ``I have to state that there 
are in Northern Ireland a number of solicitors who are unduly 
sympathetic to the cause of the IRA.''
    This comment was shocking and provocative. Hogg would not 
relieve why or from whom he had got information which could 
lead to such a statement being made. In later years we learned 
he had been briefed by senior members of the police.
    Over many years my family and I persisted in seeking all 
the facts surrounding Pat's murder. This followed much 
investigation, lobbying, and speaking out at every opportunity. 
We have been assisted and supported by so many, yourselves 
included, who concern themselves with human rights in Ireland. 
All who have examined the case have been unequivocal in their 
demand that a public inquiry is necessary.
    We persisted, and despite much deliberate delay, the 
British Government were finally forced to announce that an 
inquiry would be held. In 2001, the British and Irish 
Governments held talks at Weston Park, and one of the 
agreements to emerge was that an international judge would be 
appointed to look at six cases, and if he finds an inquiry 
necessary in any of the cases, the relevant government would 
agree to hold the inquiry.
    Judge Peter Cory, a retired Supreme Court judge of Canada, 
was appointed, and in Pat's case, his report said,

        ``The documents and statements I have referred to in 
        this review have a cumulative effect. Considered 
        together, they clearly indicate to me that there is 
        strong evidence that collusive acts were committed by 
        the Army, the Force Research Unit and RUC Special 
        Branch and the Security Services. I am satisfied that 
        there is a need for a public inquiry.''

    In reply to this report, the British Government once again 
delayed, and eventually they put in place new legislation, the 
Inquiries Act 2005. Although the legislation did need 
modernized, we took particular exception to one clause.
    This gives a government minister the power to effectively 
control the flow of information. This power was called 
restriction notices. It allows the government power to dictate 
to the inquiry, what information is released even if the 
tribunal itself is in disagreement with that decision. This 
undermining of the judicial process drew much criticism. We 
felt we could not take part in such a process. We wanted and 
still want one inquiry that is open and fair and which gives a 
chance at reaching the truth.
    So at this stage in our campaign, we reached an impasse; 
however, in 2010, there was a change of government and the new 
Secretary of State, Owen Paterson, met with us in November of 
that year. He told us his government was committed to resolving 
the case; delay suited no one. We were encouraged.
    What followed was a year of meetings between our legal 
teams, signs were encouraging, and at no stage was an 
alternative to an inquiry ever discussed. So in late summer of 
2011, when the Prime Minister asked to meet us, we were 
encouraged. In a telephone conversation between a senior 
Northern Ireland office official and my lawyer, Peter Madden, 
we were told we would be happy with what the Prime Minister 
would offer. We assumed this confidence would be a reflection 
of the position we had outlined over the previous year. How 
wrong we were. David Cameron stated he was ordering another 
paper review, an exercise similar to that carried out by Judge 
Cory. It was a meeting I shall never forget.
    Whilst this review was limited in its powers and private in 
nature, it has revealed some very shocking information about 
methods employed by the security forces. It has provided many 
more questions and, indeed, reinforced the need for a public 
inquiry.
    An inquiry into the murder of Pat Finucane will not solve 
the current re-emerging problems in Northern Ireland, but it 
would be a first step in restoring public confidence in our 
society. Until such time as the British Government lives up to 
the promise it made to my family, I will not give up my fight 
to expose the truth, and I take great encouragement as I look 
around this room today that the fight will be far from a lonely 
one.
    Thank you so much for this opportunity to put my case on 
record.
    Mr. Smith. Thank you so very much, Mrs. Finucane, for your 
testimony and, again, for your dogged determination to get to 
the bottom of who or how many and who was in collusion with 
killing your husband. Thank you.
    [Ms. Fincuane did not submit a prepared statement.]
    Mr. Smith. Mr. Devlin.

STATEMENT OF MR. EUGENE DEVLIN, VICTIM OF THE MILITARY REACTION 
                             FORCE

    Mr. Devlin. Ladies and gentlemen, my name is Eugene Devlin, 
and today I am a proud American citizen, having made my home in 
this fine country since 1978. I am in the business of owning 
and operating restaurants. The opportunity to participate in 
this legislative process through this hearing is very much 
appreciated.
    I was born in Ireland in 1954 in Andersonstown, a suburb of 
Belfast, County Antrim, in the province of Ulster. The recent 
Northern Ireland Troubles erupted during my teenage years. I 
had neither art nor part in the Troubles, but on the night of 
12th of May 1972, the Troubles came to me, up close and 
personal.
    Returning by cab from a school disco, with my friend Aiden 
MacAloon, I had failed to notice a car following us, nor did I 
notice that the car's unusual turn illuminated us with its 
headlamps. We were nearly home and on familiar turf. Suddenly a 
number of shots rang out and I fell wounded, whilst my 
companion managed to get over a hedge. My left arm was 
shattered by what I was later told was a 9-millimeter bullet, 
fired from a British Sterling automatic submachine gun. I was 
first taken to the Royal Victoria Hospital and then 
transferred, under heavy guard, to the military wing of the 
Musgrave Park Hospital. After surgery, I spent about a year 
with my arm in a cast, followed by months more in a sling.
    Although they identified the bullet and the type of gun, 
they would not allow me to keep the bullet, as they required it 
for evidence. Although the 9-millimeter is a deadly force, had 
the bullet been a caliber .45 ACP from a Thompson submachine 
gun or a high velocity rifle bullet, I would probably not be 
here to testify today. Providentially, my arm saved my life, 
but today I still have the physical reminders of that wound and 
every day carry medication as a consequence.
    Police forensics determined that neither my friend nor I 
had handled any weapons that night, nor have either of us ever 
been charged with any of the violations of law. Later that 
fateful night, a second, separate, such predatory, plain 
clothes car patrol fired on a group of equally innocent men, 
wounding five and killing Patrick McVeigh.
    Rumors had been circulating about such death squads and 
random killings presumably to terrorize the population, but 
until that night, they were not uppermost in my mind. On 
September 27, 1972, Daniel Rooney, also aged 18--like myself, 
was killed by a similar bullet in a drive-by shooting, which 
differed from my situation only in that the perpetrators 
achieved a more deadly result.
    It was a shock that someone who didn't know me would try to 
kill me, they nearly did, but I am sure they didn't care if I 
died any more than they cared about Patrick McVeigh or about 
Daniel Rooney. These shootings were unjustified and remain 
unjustifiable.
    It was only later that it came out that these shootings 
were clandestine acts of a secret terrorist force carefully 
selected from the British Army, perhaps calculated to stimulate 
inter-communal retaliation, divide and conquer, among the 
various Irish communities. It seems they were part of the 
secret Military Reaction Force (MRF).
    The most disturbing thing about this is that the Army, 
which had been sent in in 1970 to restore order and to protect 
us from sectarian or other violence, had become transformed 
into an army of occupation, with elements of that Army 
operating outside even their own law and regulations.
    When the facts of these atrocities became public, those in 
whose interest, and presumably by whose orders, they were 
perpetrated disavowed any knowledge of specific irregularities. 
Their records are nowhere to be found, yet at the time, Prime 
Minister Heath ordered that the MRF cease and be disbanded; 
meanwhile, the perpetrators have generally been rewarded with 
pensions, promotions, and medals. There is a message in that.
    Being shot that night in 1972 was a terrifying experience. 
The only other truly terrifying experience of my life was 9/11 
in New York City, when I emerged from the subway station very 
near the World Trade Center 2 just as the building was 
collapsing. In both cases, I was an involuntary victim, but the 
difference in 9/11 was that even though I was still terrified, 
like so many others, I took the opportunity to become an 
instant voluntary responder, making it to my own restaurant on 
Pearl Street, a block or so from Fraunces Tavern, and working 
with my staff to provide aid and comfort to many people. Apart 
from having a terrifying experience, the only other 
similarities are that I wound up in hospital that night and 
also continue to suffer physical effects from the experience.
    In the interests of truth and justice, I thank you for this 
opportunity to testify, and I would be happy to answer any of 
your questions.
    Mr. Smith. Thank you so very much, Mr. Devlin, for your 
testimony.
    [The prepared statement of Mr. Devlin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Ms. Hall.

  STATEMENT OF MS. JULIA HALL, EXPERT ON CRIMINAL JUSTICE AND 
       COUNTER-TERRORISM IN EUROPE, AMNESTY INTERNATIONAL

    Ms. Hall. Thank you, Chairman Smith, for this opportunity. 
It is nice to see you again. I am here to testify on behalf of 
Amnesty International.
    Mr. Chairman, last November, the New York Times opined that 
although ``much good in safety and sanity has flowed from the 
Good Friday Agreement, there is no need to draw a curtain on a 
lethal past that clearly remains deeply relevant for the people 
of Northern Ireland.''
    This editorial was in response to the suggestion that 
perhaps there should be no more investigations into crimes 
committed in the course of ``the Troubles.'' Recognizing very 
real human suffering that people had endured, however, the 
Times quoted Amnesty International's Patrick Corrigan, who is 
here with us today, who said that such a cap on accountability 
was ``an utter betrayal of victims' fundamental right to access 
to justice.''
    Mr. Chairman, the signing of the Good Friday Agreement in 
April 1998 signaled a turning point in the history of Northern 
Ireland, and there is no doubt that 15 years on, remarkable 
progress has been made in moving toward a more peaceful future; 
however, the ongoing failure to deal with Northern Ireland's 
difficult past has had negative consequences for both 
individuals and society at large.
    Many families from across communities in Northern Ireland 
are still searching for truth, justice and accountability. The 
legacy of the past, however, affects not just individual 
victims, but society as a whole. Writing in The American 
Scholar in 2011, Duke professor Robin Kirk noted, ``Belfast is 
one of the most segregated cities in the the world . . . a 
landscape of interfaces and peace walls that have grown higher, 
longer and more numerous since the Good Friday Agreement.''
    The Good Friday and subsequent agreements simply did not 
provide the tools or create the bodies or processes to fully 
grapple with the pain, anger and hurt that are inevitably the 
legacy of decades of violence and conflict.
    In September 2013, Amnesty International issued a report 
titled, Northern Ireland: Time to Deal With the Past. I would 
ask that this report be made part of the record, Mr. Chairman.
    Mr. Smith. Without objection.
    Ms. Hall. Thank you.
    This report assessed the five existing mechanisms for 
dealing with the past in Northern Ireland, you have heard what 
those mechanisms are today, but I must say, we were deeply, 
deeply disappointed, dismayed in fact at what we found in the 
course of our research.
    We have identified two key problems with the current 
approach. First, these bodies or processes have failed in the 
main to conduct prompt, thorough and effective investigations 
in an independent and impartial manner, in line with the United 
Kingdom's international human rights commitments.
    The second, more pressing, point is that even if all of 
these mechanisms were operating at full steam in full 
compliance with their mandates, the piecemeal approach to them 
is too diffuse to provide a comprehensive picture of all the 
violations and abuses that occurred. As a result, much of the 
truth remains hidden, while those in positions of 
responsibility consequently have remained shielded.
    Moreover, and this is a critical point, the focus on 
individual cases has limited the possibility for thorough 
examinations of patterns of abuse that occurred in the course 
of the conflict. For example, patterns of abuses by armed 
groups remain woefully under-investigated. Likewise, the role 
and actions of particular UK State actors have also not been 
subject to effective investigation. For instance, State 
collusion with Republican and loyalist armed groups is one of 
the critical issues that has yet to be addressed effectively by 
any of the existing mechanisms. Even in the few cases where the 
government has acknowledged that collusion has occurred, as in 
the case of Patrick Finucane, the victim's family still do not 
have the full truth and no one in higher levels of government 
has been held accountable.
    Our report concluded that one overarching mechanism should 
be established to address the past in a comprehensive manner. 
It needs to be victim focused, empowered to investigate both 
individual cases and patterns of abuse, and where sufficient 
evidence exists, there needs to be the possibility of bringing 
to justice those responsible.
    Thus, Amnesty International believes that the Haass draft 
proposals on dealing with the past are a step forward. The 
proposals will need to be refined to ensure that these 
mechanisms operate in compliance with international human 
rights standards, but they do provide a solid basis from which 
to proceed.
    It is crucial that all the stakeholders in a peaceful 
Northern Ireland do not let yet another opportunity for 
progress slip by, due to lack of political will and vision. 
Amnesty International is deeply concerned, however, that the 
Haass proposals on dealing with the past may be held hostage to 
the lack of agreement on other contentious and sensitive issues 
or may fall victim to inaction in the face of other 
disagreements among the parties. We have urged the Northern 
Ireland's political parties and the UK and Irish Governments to 
take the proposals on the past forward as matter of urgency.
    And finally, the U.S. Government and other U.S. political 
actors have an incredibly important role to play at this 
critical juncture. We urge the friends of Northern Ireland 
among you to call for real progress on delivering a 
comprehensive approach to the past.
    As the Haass draft agreement itself emphasizes, the time to 
rise to the challenge of the past is now, because Northern 
Ireland does not have the luxury of putting off this difficult 
but potentially transformative task any longer.
    Thank you.
    Mr. Smith. Ms. Hall, thank you very much for your testimony 
and for your report, which is very, very disturbing, but we 
need to know what is going on, we need to know the truth, and 
for asking very tough questions.
    [The prepared statement of Ms. Hall follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Your point that no one at higher levels of 
government have been held accountable, I mean, that is 
appalling. That this many years into the process, that that 
remains the case, and the mistreatment of the Finucane family 
by the British Government is symptomatic of a larger problem, 
but certainly for their sakes, it is just a nightmare that just 
never ends.
    I would like to ask you, if I could, Ms. Finucane, a couple 
of questions.
    You know, I know you have a legal challenge to the 
Government's refusal to order an independent judicial inquiry 
into the state collusion of your husband's death. Could you 
give us an update as to where that is?
    Ms. Finucane. Yes. After the Prime Minister announced that 
there would be a review, and we felt that, because we have been 
promised an inquiry it was the wrong decision, so we took 
proceedings in Belfast in the high court and to review the 
decision to have a review and not an inquiry, and that has 
taken slightly longer than we anticipated because they have 
been very slow at disclosing information, but at the same time 
it has been valuable, because much new information, even more 
information than came out in the DeSilva Report has come to 
light, and one of the interesting things was that the decision 
was not a unanimous decision made by the cabinet.
    One of the chief civil servants was appalled that David 
Cameron could renege on the governmental promise made at Weston 
Park. He was astounded that David Cameron was going to announce 
a review and not an inquiry.
    So we hope that the full hearing will start perhaps in the 
autumn, but we have to wait and see.
    Mr. Smith. Has either President Obama or the Prime Minister 
of the Taoiseach, Kenny, supported your efforts by urging Prime 
Minister Cameron to reconsider his decision, not to conduct the 
promised inquiry? Have either of them spoken out specifically 
on your case to Cameron for such an inquiry?
    Ms. Finucane. Well, many years ago when the President was a 
Senator, he signed a Senate Resolution agreeing that we needed 
a public inquiry, and I know that the Taoiseach, Enda Kenny, 
continually brings up the case.
    Mr. Smith. Yes.
    Ms. Finucane. And, whenever he can and wherever he can, and 
his support is invaluable.
    Mr. Smith. Now, but has President Obama? You said Senator 
Obama. Has----
    Ms. Finucane. But----
    Mr. Smith [continuing]. President Obama?
    Ms. Finucane. I don't know.
    Mr. Smith. Okay. Let me ask you this: Sir Jeremy Heywood, a 
member of Prime Minister Cameron's cabinet, has questioned the 
Prime Minister as to whether it was right to renege on a 
commitment to the inquiry, that he characterized the killing 
and collusion as a ``dark moment in the country's history.'' 
Did that give you some encouragement to have someone of such 
high stature bucking the boss, so to speak?
    Ms. Finucane. Well, yes. And he was not the only one and it 
wasn't a lone voice in the cabinet, but he has served more than 
one Prime Minister, so he is a very senior civil servant.
    Mr. Smith. Can I ask you, Mr. Devlin, has any 
representative of the British Government at any time ever 
apologized to you----
    Mr. Devlin. Never.
    Mr. Smith [continuing]. For the terrible----
    Mr. Devlin. Never.
    Mr. Smith [continuing]. Attack on you? Never.
    Mr. Devlin. Never.
    Mr. Smith. Do you know what the current status of the 
investigation into the Military Reaction Force is? I mean, has 
anybody contacted--I mean, you are a victim.
    Mr. Devlin. Yes.
    Mr. Smith. You are now here in America, but you are easily 
reachable, it would seem to me.
    Mr. Devlin. No one has contacted me and I don't think there 
is anything being done, which is an absolute disgrace.
    Mr. Smith. Which again goes to Ms. Hall's point about no 
one in higher levels of government have been held to account. 
Perhaps you might want to elaborate on that, if you would, and 
whether or not the MRF has been included in at least a request 
that has been made for accountability by the British 
Government?
    Ms. Hall. If you will permit me to take a step--one step 
back and talk about a report that was issued in July 2013 by 
Her Majesty's Inspectorate of the Constabulary.
    This report found that the HET, the currently existing 
Historical Enquiries Team, treated cases where State actors 
were involved in killings very differently than they treated 
other cases. This is an official report, by the way, it is not 
the report of a non-governmental organization, although I do 
find NGO reports very credible. It was striking to see Her 
Majesty's Inspectorate say that in cases where British military 
officers or other State actors were involved, the HET was less 
rigorous in its inquiry, that various forms of evidence were 
made available to these actors prior to their giving statements 
in the HET, and this led the HMIC, to conclude that there is a 
serious undermining of confidence in the Historical Enquiries 
Team.
    Now, that context for this notion, that people in higher 
levels of government have not been held accountable. State 
actors in general, in this process, have evaded accountability, 
and that is exactly why at this point, at this very critical 
15-year-on juncture, Baroness O'Loan, Dr. Haass, Amnesty 
International, many other NGO's, and certainly the NGO's who 
are working with victims every single day on the ground in 
Northern Ireland, are calling for a comprehensive approach.
    In a comprehensive approach where there is one mechanism 
that is looking at these cases, we could only hope that the 
force that held Mr. Devlin as a victim would definitely be a 
force that would be under investigation. Currently, to our 
knowledge, it is not under investigation in any way in the 
currently existing mechanisms.
    So I hope that you can take that context and really 
understand very clearly that it is not an accident that higher 
level State actors are not being held accountable, it is not a 
simple oversight that this unit has never been under 
investigation. It is a deliberate policy of the Government of 
the United Kingdom to ensure that certain truths never are 
revealed about those years of conflict.
    What they don't understand is the will of the families like 
the Finucanes, like Mr. Devlin, like the families that we have 
talked to, dozens and dozens of them over 2 years of research, 
these families are demanding justice and accountability. And I 
hope that the British Government is listening, because I don't 
think at this point in time, that their voices are going to be 
able to be drowned out any longer.
    Mr. Smith. In your view, has the Obama administration 
raised this in the way that it ought to?
    Ms. Hall. We are here today to ask them to do so. We are 
here today to ask the United States Government to do precisely 
that, to ask other politicians like yourselves to do that. 
There are very few governments that have the kind of influence 
on the Government of the United Kingdom that the United States 
Government has. This is the forum where we are making that 
request of the U.S. Government, of President Obama, Vice 
President Biden and politicians in both houses of Congress.
    Mr. Smith. Let me ask you, Nuala O'Loan called for an 
independent commission of Dr. Haass, an historical 
investigations unit. In your view, in all of your views, is 
that--and that does not in any way preclude an independent 
inquiry of the Finucane case, but for these other cases, is 
that something that would yield results, in your opinion, Ms. 
Hall?
    Ms. Hall. It was very interesting to see the dialogue 
today. Dr. Haass was very clear that he spoke basically on 
behalf of the parties.
    Mr. Smith. Right.
    Ms. Hall. So was giving voice to people from Northern 
Ireland, Baroness O'Loan, from the United Kingdom.
    What Amnesty International has said is that one mechanism 
that is comprehensive is absolutely essential. The people of 
Northern Ireland, with the various political parties and the 
Governments, the United Kingdom Government and the Irish 
Government, should make the decision about what that looks 
like. From Amnesty International's perspective, the 
requirement, the sole requirement would be that any mechanism 
must conform with the United Kingdom's international human 
rights obligations. It has to be independent, thorough, 
effective, impartial, and ensure that perpetrators are held 
accountable and victims have effective redress.
    Mr. Smith. Thank you. So the current mechanisms, just to be 
clear, are broken and need to be replaced with a mechanism that 
is all those things you just said?
    Ms. Hall. Yes.
    Mr. Smith. Ms. Finucane brought up the whole issue of the 
restriction notices and you--just for the record, I and others 
did write the Members of Parliament when they were considering 
a terrorism law and the ability to convey to Ministers a veto 
power over what goes forward or not.
    It seems to me that, again, this is another area where a 
coverup is not too strong of a word. Nuala O'Loan mentioned in 
her testimony, or testified about the gate-keeping function 
played by the legacy unit, which employs former Special Branch 
officers. It seems to me that such an independent inquiry would 
have to be able to overcome that obstacle as well, otherwise, 
under a false notion of national security, people who have 
committed atrocities will be concealed or hidden from any kind 
of accountability; is that correct?
    Ms. Hall. There are two issues here: One is the 
independence, which of course former RUC Special Branch 
officers have no place investigating violations by RUC Special 
Branch, even if they occurred 20 or 30 years ago. So I think 
that in terms of independence, that is a critical issue.
    The second point to make on the notion of, you know, what 
is required, we have not actually said whether it should be an 
actor from outside of Northern Ireland or whether it should be 
composed of people from Northern Ireland, but it is absolutely 
clear that in the North, very few people have been untouched by 
the conflict, and if you are not untouched, it means that you 
cannot be impartial. So our call would be to ensure that there 
is independence and impartiality as well as effectiveness and 
thoroughness.
    Mr. Smith. Mr. Devlin testified that the perpetrators have 
generally been rewarded with pensions, promotions and medals, 
there is a message in that. Ms. Hall, how would you respond to 
that, talking about the MRF?
    Ms. Hall. You will note in our report that we do not 
reference the MRF, and I feel uncomfortable discussing a 
factual situation with which I have very little firsthand 
knowledge. But do let me say that it is not the first situation 
of post-conflict where we have seen the perpetrators of crimes, 
the perpetrators of violence actually go up the ladder.
    Right? It is a way of rewarding people who essentially were 
seen at one point as helping to protect the state, but from 
Amnesty International's point of view, national security 
concerns can never trump fundamental human rights. Patrick 
Finucane's life was taken, Mr. Devlin's life was threatened. 
Those are crimes under international law, and the invocation of 
protecting the state or national security can never trump such 
fundamental human rights protections.
    Mr. Smith. Thank you.
    Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And, again, let me just say it is always an honor to be 
working with Chairman Smith. He is a man of great honor and 
integrity, but also a man of truly a commitment to humanity. 
And I have known--after my 25 years I have been here in 
Congress, and he is one of my most respected colleagues, in my 
eyes.
    And I am trying to grasp what the best way to make a better 
world is here, and I know we have just--I think we need to make 
sure we have everything in perspective as well. We are talking 
about violence that took place against people who were not 
engaged in violent activity, were not engaged in terrorism, but 
violence that was conducted by authorities on people who were 
not engaged in violence.
    But at that time, there were a lot of people engaged in 
violence in that society, and we did have a situation where 
pubs were being blown up and Margaret Thatcher, I understand, 
her--there was an attempt on her life, and several people in 
the building, they have lost their lives when a bomb went off 
in the building that she was in. There was violence being 
committed.
    Now, let me ask all the way down the line, we are talking 
about justice for people who committed murders who were part of 
the other side, are we not? I mean, we want investigations not 
just of the officials that were engaged in this, but also 
perhaps people who were in the IRA at the time who planted 
bombs and killed numbers of civilians; is that right, Ms. Hall?
    Ms. Hall. I am sorry, Chairman Rohrabacher, you were 
otherwise engaged with business and you stepped out.
    I had mentioned in my comments that one of the key issues 
for Amnesty International is further investigation of the 
policies and practices of the armed groups, of all of the armed 
groups----
    Mr. Rohrabacher. All right.
    Ms. Hall [continuing]. Including the IRA, so, yes----
    Mr. Rohrabacher. Thank you.
    Ms. Hall [continuing]. In fact, abuses by all sides.
    Mr. Rohrabacher. Yeah. I have some constituents out, and 
one thing about democracy, we have to pay attention to our 
constituents, so I had a group of constituents I had to say 
hello to and focus on that for a few minutes.
    Thank you for that answer. That is exactly the right 
answer. You know, there is--we know that in the past we have 
had leaders of countries who earlier on had committed acts of 
violence against civilians, do we not? And I think the one that 
everybody knows about is Mr. Begin, in Israel, who helped bomb 
the King David Hotel, where I happen to stay. And they make a 
big deal out of it in the King David Hotel, where they actually 
have a video of the bombing and then they have a video when 
Begin came back 20 years later as the Prime Minister to the 
hotel.
    Tell me, would the approach that we are trying to take 
today, would that make peace any better, any easier if Mr. 
Begin would have been prosecuted instead of--which they did, 
they did not focus on that, but said 20 years later, he was 
elected to Parliament.
    In fact, he became the Prime Minister; is that what we are 
talking about?
    Ms. Finucane. I would say in our case, we have never sought 
prosecutions----
    Mr. Rohrabacher. All right.
    Ms. Finucane [continuing]. Against those that perpetrated 
the crime against my husband, but what we--a statement I made 
many, many years ago was in Northern Ireland at the time my 
husband was shot, gunmen were two a penny. It wasn't hard to 
get somebody to pull a trigger. And I have never really been 
interested in the person who pulled the trigger. I am 
interested in the people behind that, who sent that man out.
    Mr. Rohrabacher. Uh-huh
    Ms. Finucane. And I want to know how far up the chain of 
command that went. 
    Mr. Rohrabacher. I think that that is very legitimate for 
someone, anyone who is--it is even legitimate for Mr. Devlin to 
say, who shot me and at least let's hold someone accountable, 
if nothing else, for an apology for maybe shooting someone that 
they----
    Mr. Devlin. Well, sir, you had made a comment earlier on 
about giving it up and that in the past was the past and let 
bygones be bygones.
    Mr. Rohrabacher. Could you talk a little bit closer to the 
mike?
    Mr. Devlin. I am sorry. You had made a point earlier on of 
letting the past be the past and letting bygones be bygones.
    Mr. Rohrabacher. Yes.
    Mr. Devlin. The Israelis never let the past be the past and 
let bygones be bygones. To this day they still hunt down the 
people who carried out the Holocaust.
    These people carried out a heinous crime in Northern 
Ireland, and something has to be done.
    Mr. Rohrabacher. I will say this, that my reading of this, 
and I am just not an apologist for Israel and anything they do 
is right, but----
    Mr. Devlin. Right.
    Mr. Rohrabacher [continuing]. My reading is if there was an 
agreement with the Palestinians tomorrow, the Israelis would 
let bygones be bygones and actually live at peace with the 
people who are going to live at peace with them. It is the 
ongoing conflict that creates this hatred, and the idea is to 
try to stop----
    Mr. Devlin. People just want----
    Mr. Rohrabacher [continuing]. To try to stop this type of 
violence.
    Mr. Devlin. People just want the truth. They are not 
looking to have people hang them from a flag pole, they are 
looking to have the truth.
    Mr. Rohrabacher. Good.
    Mr. Devlin. And if you can't give us the truth, then what 
are you hiding? The British Government are hiding stuff. The 
people that were in power at the time are hiding stuff. They 
have to come out and tell people what went on. It doesn't 
matter what you say, how you pinned it. These were criminals 
that carried these crimes out. We know they may not go to jail, 
but God Almighty, the people that gave them the orders to do it 
have to be brought to justice.
    Mr. Rohrabacher. Well, if you are calling for 
accountability and truth, you are pleading your case and people 
are--and myself and others are totally on your side on that 
call. I mean, this is obviously accountability, but 
accountability doesn't necessarily mean going back 20 or--one 
thing is locating people who were involved in conflict, it is 
another thing after 30 or 40 years.
    When I said 25 years, it was 25 years since someone 
murdered your husband. 25 years. It was--but you are right, you 
are right. You deserve to know who was involved in that and you 
deserve to know if the British Government was involved in 
approving that, you deserve to know that, and the public 
deserves to know that, and that is how we will get people in 
government to make right decisions, knowing that eventually the 
truth will come out if they make a criminal decision like to 
kill an unarmed person or to terrorize a population. So that, I 
don't have any disagreement with that. Don't think because I am 
trying to figure out a way to get people to live in peace with 
one another.
    I will say that there are still 50 pages of the Warren 
Commission report that have not been made public. And I am one 
of the--I don't know if are on this, Chris, but I am, I am one 
of the guys saying everything should be open after 50 years, 
for Pete's sake, the American people should know everything.
    And, frankly, it shouldn't even be 50 years and it 
shouldn't be 25 years; at least as soon as possible is to get 
an honest assessment of situations like this, the public should 
know that. And Amnesty International's been playing a wonderful 
role in trying to expose these evils that governments have done 
around the world.
    So again, I love Ireland. And I will have to say, I 
honestly believe that had Ireland not been split with those six 
counties in the north and, you would not have this problem 
today, because the Irish throughout the rest of that area are 
not--the Protestants and the Catholics are not at each other's 
throats in the Republic of Ireland.
    And so it behooves us to make the right decision on these 
dramatic era issues of what is going to be one country and 
sovereignty, et cetera, rather than just trying to get over the 
hump. And what happened in--as we know in 1920 and at that 
time, the British people were just tired of fighting, what 
agreement can we make, and they just went ahead and agreed to a 
rotten agreement, and that is why we are still trying to solve 
it today. But, that is a whole other issue.
    And, ma'am, I am sorry that your husband was taken away and 
shot. I mean, that is a horrible thing.
    Ms. Finucane. It may seem like a distant time for you, and 
you keep referring back to things that happened in the past and 
maybe letting them go, but for me, it is a current issue, and 
in 25 years in practically every one of those 25 years, there 
has been new information come to light, so it is never an in-
the-past issue, not for me or for other people in Northern 
Ireland.
    Mr. Rohrabacher. I understand.
    Ms. Finucane. And although it started off as questions 
about the murder of one man, it has now come to be a collusion 
policy that was carried out against every single person in 
Northern Ireland. No matter who you were or what you did, if 
you were dispensable, you could be disposed of. And we want 
that exposed, we want the people who put that policy in place 
made accountable.
    And you referred earlier on to picking at a little scab. I 
myself used an analogy for many years that what is happening in 
Northern Ireland, and not just in my case, is a deep, deep 
wound, and you cannot cover a deep wound up. If you stitch it 
up, it will fester and it will burst, and what you need to do 
is deal with it and pack it and start at the bottom, and then 
you end up with practically no scar at all, and that is what we 
need.
    Because I do one case, because I fight for my husband's 
name, but it has come to mean quite a lot in Northern Ireland, 
and many people who are unable or unwilling to stand up and be 
as public as I am, encourage me to continue, because they know 
that if the truth comes out in my case, it will satisfy them. 
And that is all they want: Truth and justice.
    Mr. Rohrabacher. That was a very fine retort. Thank you.
    Ms. Finucane. Thank you.
    Mr. Smith. Thank you very, Chairman Rohrabacher.
    Just a couple final comments. You know, one of the things 
about the Finucane case that got me personally, but also our 
subcommittee, so focused, including resolutions that passed in 
the House overwhelmingly that I authored, was the denial, the 
lies, the multi-layered deception that was engaged in by the 
British Government. And only in recent vintage did they come 
forward and suggest that there was collusion, but had you, 
Geraldine, accepted those lies, not only would the case of your 
husband's mistreatment, the cruelty that was meted out against 
him and yourself and the family who witnessed this terrible 
murder, but it would have enabled those lies and that deception 
to have further credibility and credence going forward.
    This is one big massive coverup that needs to be exposed, 
and I can assure you that this subcommittee and this chairman 
will not cease so long as I have breath to do so.
    I also would ask of Mr. Devlin, in the Panorama documentary 
by the BBC, the three people who speak on record on camera were 
proud----
    Mr. Devlin. Yeah.
    Mr. Smith [continuing]. Proud. You watch that, you see a 
pride come through this TV screen for the killings that they 
engaged in; no remorse, no sense of, we have done wrong, I beg 
your forgiveness.
    If you could--when you watched that, and of course you were 
a part of that show, but when you watched it, what was your 
reaction looking at cold-blooded murderers talking about drive-
by shootings and the like?
    Mr. Devlin. At that time, it was just like a common thing 
in Northern Ireland, as Mrs. Finucane just said, that no one 
knew who was doing what, and there was--everybody was, like, 
colluding with someone.
    The RUC were colluding with someone, the British Army were 
colluding with someone. They were all--it was like a big game 
to them. And if these guys were on TV, the way they talked, it 
was like they were going out for a cruise that night, and it 
was like a drive-by shooting that you would see in a gangland 
in LA or in South America, that is what they thought they were 
doing. They just thought this was okay: We don't have anybody 
to answer to, because we have been given carte blanche.
    And they did that and they did it throughout the years. 
Right up until the peace process, they were still doing.
    Mr. Smith. As you watched the documentary, what was your 
reaction in watching?
    Mr. Devlin. I just thought they were murderers and animals 
and they need to be--listen, I know they might not get any jail 
time, statute of limitations or whatever it is, but these 
people have to be put up on a dock and asked why did you do 
this and who did--told you to do this. But they were animals, 
they were just pure animals. They--they were like the Black and 
Tans reincarnated, only they were called the MRF.
    Mr. Smith. Would you like to add anything before we 
conclude the hearing, any of our witnesses?
    You know, Geraldine, our first hearing on your husband, you 
will recall, was back in 1997. Michael testified at that. We 
will not give up until the public inquiry, full, independent 
with all facts on the table occurs and--and we will not give up 
as a committee, I can assure you, with good, strong support 
from both sides of the aisle, until that which is hidden 
becomes known.
    I do plan on introducing a resolution. The gist of it will 
be focusing on the whole concept of an independent commission 
along the likes of Nuala O'Loan and what Special Envoy Haass, 
Ambassador Haass, talked about. As you pointed out, Ms. Hall, 
the current systems are not working.
    I would suggest cynically that while they may have had a 
good beginning, many of the guts of it have made it designed to 
fail, and it is failing, so we will work.
    I would invite your input as to what should go into that 
resolution. And I was just reminded, I did remember, Julia Hall 
testified at that 1997 hearing as well. So thank you for your 
long stay and your focus on this as well.
    Ms. Hall. I did.
    Mr. Smith. Thank you.
    The hearing is adjourned.
    [Whereupon, at 4:47 p.m., the joint subcommittee was 
adjourned.]







                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Richard N. Haass, 
       chair, Panel of Parties in the Northern Ireland Executive


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Material submitted for the record by Ms. Julia Hall, expert on criminal 
     justice and counter-terrorism in Europe, Amnesty International


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
